U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           The Department’s 

                           and Components’ 

                      Personnel Security Processes 

                                      September 2012




                                        I -2012-003

                                EXECUTIVE DIGEST 



INTRODUCTION

       The Office of the Inspector General (OIG) examined whether the
Department of Justice (Department or DOJ) and its components
effectively managed the personnel security process for individuals hired
into DOJ positions. We evaluated the time to complete the personnel
security process for government employees, how well the Department
meets the timeliness and reciprocity requirements of the Intelligence
Reform and Terrorism Prevention Act of 2004 (IRTPA) and other directives,
whether certain positions take longer to process, and whether the
Department can ensure that only employees with favorably adjudicated
background checks have access to sensitive and National Security
Information.1

      Background investigations for the Department are conducted by
one of three investigative agencies – the Office of Personnel Management
(OPM), the Federal Bureau of Investigation (FBI), and the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF).2 The extent of the
background investigation required is determined by the type of
information that individuals have access to in their work for the
Department. Individuals in positions that require access to National
Security Information (information classified at the Top Secret, Secret, or
Confidential level) generally require more in-depth investigations than do
individuals whose positions do not require access to classified
information (typically termed Public Trust positions).

       IRTPA requires agencies authorized to grant National Security
Information clearances to complete at least 90 percent of the clearances
within an average of 60 days – 40 days to complete the background
investigation and 20 days to complete the adjudication determination.
IRTPA’s reciprocity provision mandates that agencies accept a
background investigation completed by any authorized federal
investigative or adjudicative agency, provided that the background
investigation was favorably adjudicated, is at the right level for the
position, and was completed within the past 5 years.



       1   Pub. L. No. 108-458, 118 Stat. 3638.

       2 Executive Order 12968 grants the Department the authority to grant,
suspend, and revoke security clearances.


U.S. Department of Justice                                                     i
Office of the Inspector General
Evaluation and Inspections Division
      Investigations for Public Trust positions are not subject to the
IRTPA time guideline; rather they are covered by regulations that require
the adjudications to be completed and the determinations reported to
OPM within 90 days. Additionally, agencies are required to apply
reciprocity for Public Trust cases under 5 C.F.R. § 731.202 and
Executive Order 13467, which include language similar to the IRTPA
reciprocity requirement for National Security Information cases.

RESULTS IN BRIEF

       The OIG found that the Department as a whole did not meet the
60-day IRTPA time guideline for processing National Security Information
clearances.3 The time taken to complete the background investigation
phase of the process was the primary reason for not meeting the IRTPA
timeliness guideline.4 Table 1 summarizes the time to process completed
cases.

       Table 1: Time to Process Completed Security Approvals,
            October 1, 2009, through December 31, 2010
                                               Days in Process
Investigative                                                            366 days or
Agency                  0-60 days     61-180 days     181-365 days          more
OPM                            374          1,175              170                     21
FBI                          1,155           1,948               206                    8
ATF                             86              50                11                    0
All DOJ (N=5,204)           1,615            3,173               387                  29
Percentage                  31.0%           61.0%              7.4%                0.6%

Source: OIG analysis.

      We also found that approval for non-FBI attorneys took more than
twice as long to complete as approvals for other personnel. Furthermore,
the Department excludes most attorney positions from its timeliness
reports. As a result, Department managers, and OPM, lacked


       3  Not all background investigations result in granting a security clearance. For
example, some individuals are granted Public Trusts and others may not be granted a
security clearance until it is needed to perform a specific job.

       4  The Justice Management Division’s Security and Emergency Planning Staff
(SEPS) is responsible for managing the entire security clearance process for Department
personnel. However, OPM is responsible for conducting the background investigation
portion of the process for some Department personnel. SEPS cannot control how long
OPM takes to complete its background investigations.


U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
information that would have alerted them to inefficiencies or delays in
the non-FBI attorney clearance process.

       Clearances for certain key positions in the Department such as
agents, intelligence analysts, and linguists also consistently take longer
than 60 days to process. As a result, these positions may go unfilled for
extended periods because those persons generally cannot start work
until their background adjudications have been completed. The slower
processing is caused, in part, by factors such as the need to verify an
individual’s foreign contacts or to resolve credit issues.

       The Department’s time to complete Public Trust cases increased
92 percent from 99 to 190 days during the period of our review. Public
Trust employees are permitted to start work under a waiver while their
cases are processed. As a result, these individuals routinely work in the
Department, with access to sensitive information and systems, for
significant periods of time without completed background investigations
and adjudications. Indeed, it took more than one year to complete the
background investigations and adjudications for 3 percent of the
employees in Public Trust positions, which exceeded their one year
probationary periods. Accordingly, those individuals obtained
permanent employment status, making it more difficult to discharge
them if derogatory information was uncovered during their background
investigations.

       The oversight of the Department’s personnel security processes by
the Justice Management Division’s Security and Emergency Planning
Staff (SEPS) is not sufficient to identify security violations and enforce
security policy. Although components track data on the status of
employee background investigations, clearance levels, and
reinvestigations, the tracking is inconsistent and often incomplete.
Further, the field does not always have accurate information on
individuals’ clearance levels or the status of their investigations. The
lack of information makes it difficult to ensure that only individuals with
the appropriate clearance level have access to sensitive and classified
information. Finally, reciprocity data is inconsistently tracked, not
reported, or reported incompletely, which made it impossible to
determine whether the Department applies reciprocity consistently.

RECOMMENDATIONS

      In this report, we make 13 recommendations to improve the
Department’s timeliness in processing background investigations and
adjudications and ensure that only individuals with the appropriate
clearance level have access to sensitive and classified information. These

U.S. Department of Justice                                                iii
Office of the Inspector General
Evaluation and Inspections Division
recommendations include establishing procedures to improve the
timeliness in adjudicating Public Trust cases, changing the Office of
Attorney Recruitment and Management’s process and staffing to improve
the timeliness of attorney clearances, including timeliness data on
attorney clearances in the Department’s IRTPA reports, and improving
SEPS’s oversight of components’ security clearance processes. Our
recommendations also include ensuring that field offices have access to
headquarters’ security information and that field offices be required to
know the type of clearance each employee on site holds.




U.S. Department of Justice                                            iv
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS 



 BACKGROUND ................................................................................. 1
 

 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW .... 12
 

 RESULTS OF THE REVIEW............................................................. 14
 

     CHAPTER I: PROCESSING TIMES FOR NATIONAL SECURITY 

       INFORMATION POSITIONS .................................................... 14
 

     CHAPTER II: TIMELINESS FOR PUBLIC TRUST POSITIONS ...... 37
 

     CHAPTER III: PROGRAM OVERSIGHT AND CLEARANCE 

       TRACKING............................................................................. 43
 

 CONCLUSION AND RECOMMENDATIONS ...................................... 51
 

 APPENDIX I: ACRONYMS ............................................................... 54
 

 APPENDIX II: RISK LEVELS AND COST ASSOCIATED WITH 

   BACKGROUND INVESTIGATION REQUIREMENTS FOR 

   NATIONAL SECURITY INFORMATION AND PUBLIC TRUST

   POSITIONS................................................................................. 55
 

 APPENDIX III: SEPS ORGANIZATION CHART ................................. 57
 

 APPENDIX IV: INTERVIEWS........................................................... 58
 

 APPENDIX V: METHODOLOGY ...................................................... 61
 

 APPENDIX VI: TIME TO COMPLETE NATIONAL SECURITY 

   INFORMATION CASES PROCESSED AS PART OF THE 

   FASTEST 90 PERCENT............................................................... 65
 

 APPENDIX VII: CASES PENDING AS OF APRIL 25, 2011................ 67
 

 APPENDIX VIII: COMPLIANCE REVIEW TEAM SITE VISITS, 

   FY 2010 AND FY 2011................................................................ 68
 

 APPENDIX IX: BUREAU OF ALCOHOL, TOBACCO, FIREARMS 

   AND EXPLOSIVES RESPONSE TO DRAFT REPORT .................... 69
 

 APPENDIX X: OIG ANALYSIS OF THE BUREAU OF ALCOHOL, 

   TOBACCO, FIREARMS AND EXPLOSIVES RESPONSE ............... 71
 


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX XI: THE FEDERAL BUREAU OF PRISONS RESPONSE 

   TO DRAFT REPORT .................................................................... 73
 

 APPENDIX XII: OIG ANALYSIS OF THE FEDERAL BUREAU OF 

   PRISONS RESPONSE ................................................................. 76
 

 APPENDIX XIII: THE DRUG ENFORCEMENT ADMINISTRATION 

   RESPONSE TO DRAFT REPORT ................................................. 79
 

 APPENDIX XIV: OIG ANALYSIS OF THE DRUG ENFORCEMENT

   ADMINISTRATION RESPONSE ................................................... 81
 

 APPENDIX XV: THE FEDERAL BUREAU OF INVESTIGATION 

   RESPONSE TO DRAFT REPORT ................................................. 83
 

 APPENDIX XVI: OIG ANALYSIS OF THE FEDERAL BUREAU OF 

   INVESTIGATION RESPONSE ...................................................... 86
 

 APPENDIX XVII: THE U.S. MARSHALS SERVICE RESPONSE TO

   DRAFT REPORT ......................................................................... 88
 

 APPENDIX XVIII: OIG ANALYSIS OF THE U.S. MARSHALS 

   SERVICE RESPONSE ................................................................. 90
 

 APPENDIX XIX: THE SECURITY AND EMERGENCY PLANNING 

   STAFF RESPONSE TO DRAFT REPORT ...................................... 92
 

 APPENDIX XX: OIG ANALYSIS OF THE SECURITY AND 

   EMERGENCY PLANNING STAFF RESPONSE .............................. 98
 

 APPENDIX XXI: THE OFFICE OF ATTORNEY RECRUITMENT

   AND MANAGEMENT RESPONSE TO DRAFT REPORT............... 105
 

 APPENDIX XXII: OIG ANALYSIS OF THE OFFICE OF ATTORNEY 

   RECRUITMENT AND MANAGEMENT RESPONSE ..................... 109
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND 



       The Office of the Inspector General (OIG) is conducting a two-phase
review to assess whether the Department of Justice (Department or DOJ)
is effectively administering the personnel security process for employees
and contractors to meet component mission and security requirements.
This report discusses the first phase of the review, which focused on the
time to complete the personnel security process for government employees
and the Department’s oversight of the components’ security processes. As
part of this review, we evaluated the Department’s success in meeting the
requirements of the Intelligence Reform and Terrorism Prevention Act of
2004 (IRTPA) and executive branch directives.5 The second phase of the
review will focus on the security process for contractors.

      In 1995, Executive Order 12968 called for a uniform federal
personnel security program for employees who will be considered for
access to classified information and established security policies for
protecting classified information. It also detailed individual access levels
and reciprocity procedures.

       IRTPA built on this Executive Order by requiring agencies that are
authorized to grant National Security Information clearances to complete
at least 90 percent of clearances within an average of 60 days. Those
agencies are to set aside a period of not longer than 40 days to complete
the investigative phase and a period of not longer than 20 days to complete
the adjudicative phase of the clearance.6 Further, 5 C.F.R. § 732.302(b)
and Executive Order 10450 require that Public Trust adjudication
determinations be reported to OPM within 90-days of the completed
background investigation.7 Table 2 summarizes the timeliness standards
and regulatory guidance for National Security Information clearances and
Public Trusts.

       5   Pub. L. No. 108-458, 118 Stat. 3638.

       6  The IRTPA guidelines establish the 60-day deadline for completing background
investigations and adjudications for National Security Information clearances. These
guidelines are accepted government-wide and used by ODNI to measure agency
timeliness. Therefore, for the purposes of this review, the OIG used the IRTPA goal of
processing the fastest 90 percent of clearances within 60 days to measure the
Department’s overall performance.

       7 The language in IRTPA does not establish specific timeliness guidance for
completing the security clearance process for Public Trust positions.


U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation and Inspections Division
               Table 2: Clearance Timeliness Standards and Guidance
                        Background            Adjudication
Position Type          Investigation         Determination          Reinvestigation
National Security     40 days based on   20 days based on         Every 5 years based
Information           IRTPA              IRTPA and DOJ Order      on DOJ Order
                                         2610.2B                  2610.2B
Public Trust          N/A                90 days based on 5       Every 5 years based
                                         C.F.R. § 732.302(b),     on DOJ Order
                                         Executive Order          2610.2B
                                         10450, and DOJ Order
                                         2610.2B

Source: OIG.

      The reciprocity provision in IRTPA mandates that agencies accept a
security clearance granted or accept an eligibility determination for a
clearance by an authorized federal investigative or adjudicative agency
provided that the clearance is not temporary or interim, and the
background investigation was favorably adjudicated, was at the right
security clearance level for the position, and was completed within the
past 5 years.8

       IRTPA prohibits agencies from establishing additional requirements
for background investigations (except for polygraphs) without the approval
of a designated agency. In 2008, Executive Order 13467 named the Office
of Management and Budget (OMB) as the designated agency. OMB is
responsible for managing and implementing security clearance reform
throughout the federal government that pertains to adjudicating and
granting clearances based on investigations.

      Executive Order 13467 also mandated the use of consistent
guidelines in investigations and adjudication determinations across the
federal government. In addition, the Order establishes the Suitability and
Security Clearance Performance Accountability Council, chaired by the
Deputy Director of OMB, for the executive branch.9 The Council is
responsible for ensuring the investigative and adjudicative processes are
run properly. It monitors how agencies adhere to processing guidelines

       8  Executive Order 12968, Executive Order 13381, and DOJ Order 2610.2B also
include the requirement and any applicable exceptions for reciprocity.

       9   The Performance Accountability Council includes representatives from OMB, the
Office of Personnel Management (OPM), and the Office of the Director of National
Intelligence (ODNI). DOJ is not a member of the Council, but DOJ personnel serve on the
Federal Investigative Standards Working Group, which reports to the Council.


U.S. Department of Justice                                                            2
Office of the Inspector General
Evaluation and Inspections Division
and oversees the development of tools and techniques to improve the
security clearance process. As part of this function, the Council collects
timeliness and reciprocity data from agencies.

National Security Information and Public Trust Positions

       The type of information that individuals have access to determines
the type of background investigation required for a position. Individuals in
positions that require access to classified information are granted National
Security Information clearances at the Top Secret, Secret, or Confidential
level. A Top Secret clearance is based on a Single Scope Background
Investigation (SSBI). A Secret or Confidential clearance is based on a
Moderate Background Investigation (MBI), an Access National Agency
Check and Inquiries (ANACI), an SSBI, or a 5-year scope Background
Investigation (BI).10 IRTPA provides guidelines for such National Security
Information clearances to meet.11

       Individuals who do not require access to classified information but
who may be involved in policy making, major program responsibility, or
other sensitive roles are typically considered to be in Public Trust
positions. In accordance with 5 C.F.R. § 731, each DOJ position is
assigned a risk level of High, Moderate, or Low based on the potential
harm their actions could cause the federal government. A High Risk
position requires a background investigation covering the past 5 years. A
Moderate Risk position requires a Moderate Background Investigation.
A Low Risk position requires a National Agency Check and Inquiries
investigation. An evaluation is conducted to determine if anything in the
individual’s character or conduct would negatively affect the integrity or
efficiency of their government service.12


       10  An SSBI covers the past 7 years of a subject’s activities and includes
verification of citizenship, date and place of birth, and national agency records checks. It
also includes in-person interviews of the subject and selected references. A 5-year BI is
similar, except it covers only the past 5 years of a subject’s activities. An MBI also covers
5 years but with mailed inquiries instead of personal interviews.

       11 The Office of the Director of National Intelligence (ODNI) is currently exploring
the possibility of establishing a separate timeliness goals for Top Secret and Secret
clearances. This is based on the premise that background investigations for Top Secret
clearances are more complex and take longer to complete than investigations for Secret or
Confidential clearances. However, as of the time of this report, Top Secret and Secret
clearances are still subject to the IRTPA timeliness goals, as written.

       12 Section 731 of Title 5, Code of Federal Regulations establishes general
guidelines for evaluating individuals in Public Trust positions. Agencies may also require
candidates to meet certain agency-specific qualifications that are related to the agency’s
                                                                                    (Cont’d.)
U.S. Department of Justice                                                                3
Office of the Inspector General
Evaluation and Inspections Division
       Timeliness in conducting background investigations and
adjudications for Public Trust positions is not subject to the IRTPA time
guideline. However, federal regulations require that the adjudication be
completed and the determination be reported to OPM within 90 days.13
Further, agencies are required to apply reciprocity for Public Trust cases
under 5 C.F.R. § 731.202, which prohibits agencies from making a new
determination for a person who has already been determined suitable.
Likewise, Executive Order 13467 states that except as otherwise
authorized by law, background investigations and adjudications shall be
mutually and reciprocally accepted by all agencies. Appendix II details the
types of National Security Information clearances and Public Trust risk
levels and the background investigation required for each position.

Personnel Security Process

       Although the process can vary depending on the position’s risk
designation, in general, the personnel security process consists of a
background investigation and an adjudication determination. Each
component has a designated Security Programs Manager responsible for
certifying that the requirements for granting security clearances are
adequate and for monitoring compliance. Figure 1 depicts the typical
personnel security process.




mission or key functions. For example, the Drug Enforcement Administration has a
stricter drug policy, and the Bureau of Alcohol, Tobacco, Firearms and Explosives has
restrictions against hiring individuals who hold a current Federal Firearms License.

       13   5 C.F.R. § 732.302(b) and Executive Order 10450.


U.S. Department of Justice                                                              4
Office of the Inspector General
Evaluation and Inspections Division
                      Figure 1: Personnel Security Process




Abbreviations: BI = Background Investigation; e-QIP = Electronic Questionnaires for
Investigations Processing system; HR = Human Resources.

Source: OIG.

      To initiate the clearance process, individuals must provide
background information related to their family members, residence,
education, employment, finances, and criminal history. This information
serves as the basis for the investigation. Since 2005, individuals have
typically entered the information online using the Office of Personnel
Management’s (OPM) Electronic Questionnaires for Investigations
Processing (e-QIP) system. Once the component requesting the
investigation verifies the information is complete, it is sent to the agency
responsible for conducting the investigation. The investigative agency
conducts the investigation, which consists of verifying residence,
education, employment, financial state, and criminal history.
Investigators generally interview the individual, as well as family members,
neighbors, and personal acquaintances.

      The results of the investigation, which usually include a summary of
any interviews and database checks, are sent to the adjudicating
authority.14 The adjudication process examines more than a dozen
variables over a sufficient period of a person’s life to determine whether the
person is eligible for access to classified information or to serve in a Public


       14  The results of this investigation are also used to determine if the individual is
suitable to carry out the duties of a federal position with integrity, efficiency, and
effectiveness. This suitability determination is often conducted concurrently with the
security adjudication.


U.S. Department of Justice                                                                 5
Office of the Inspector General
Evaluation and Inspections Division
Trust position. Available information about a person’s past and present,
favorable and unfavorable, is used to make determination decisions.

       Employees holding a security clearance who have been employed in
their jobs for certain periods of time are subject to a reinvestigation to
verify that they should still have access to classified National Security
Information. A reinvestigation is required once every 5 years for
individuals possessing a Top Secret clearance, once every 10 years for
those with a Secret clearance, and once every 15 years for those with a
Confidential clearance.15 Federal agencies may impose additional
requirements to expand the number of individuals subject to
reinvestigation or to require more frequent reinvestigations, and the
Department has decided to require both Public Trust employees and those
with National Security Information clearances to be reinvestigated once
every 5 years. The hiring agency or the component headquarters usually
monitors expiration dates.

Authorities to Conduct Background Investigations and Adjudications

      The authorities to conduct background investigations and make
adjudication decisions for Department employees vary from component to
component.

      Background investigations for Department employees are conducted
by one of three authorized investigative entities, one of them outside the
Department, OPM, and two of them inside the Department, the Federal
Bureau of Investigation (FBI) and the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF). All three agencies have authority to
complete background investigations for both National Security Information
and Public Trust positions. Regardless of which agency performs an
investigation, all background investigations have to meet the same
government-wide standards.16 Agencies’ processes differ slightly as will be
discussed in the sections below.

      The Justice Management Division’s (JMD) Security and Emergency
Planning Staff (SEPS) is authorized to make adjudication determinations
for both Public Trust positions and National Security Information


       15   50 U.S.C. § 435b(A)(7).

       16   Executive Order 12968 and Executive Order 13467.


U.S. Department of Justice                                              6
Office of the Inspector General
Evaluation and Inspections Division
positions.17 SEPS further delegated some of this adjudication authority to
ATF, the Federal Bureau of Prisons (BOP), the Drug Enforcement
Administration (DEA), the FBI, and the U.S. Marshals Service (USMS) so
these agencies could make adjudication determinations for their own
employees. SEPS makes the adjudication determinations for the
remainder of the Department.

     Table 3 details each component’s authority and shows which
component is responsible for conducting investigations and adjudications.

      Table 3: Background Investigation and Adjudication Authority
                                                    Who Has Authority to
                Who Has Authority to Conduct        Adjudicate Security Clearances
                Background Investigations for:      for:
                   Employees                           Employees
Component        (non-attorneys)      Attorneys      (non-attorneys)      Attorneys
ATF                    ATF               FBI               ATF               SEPS
BOP                   OPM                FBI               BOP               SEPS
DEA                   OPM                FBI               DEA               SEPS
USMS                  OPM                FBI              USMS               SEPS
FBI                    FBI               FBI               FBI                FBI
All Other
                      OPM                FBI              SEPS               SEPS
Components

Source: OIG.

DOJ Personnel Security Process

      SEPS is the primary office responsible for developing, implementing,
and ensuring compliance with security policy throughout the Department.
Within SEPS, the Personnel Security Group and the Office of Information
Safeguards and Security Oversight’s Compliance Review Team handle policy
and oversight specific to the Department’s security clearance process.

       The Personnel Security Group has two sections. The Policy, Oversight,
and Training Section develops Department-wide personnel security policy and
training, while the Operations Section reviews and adjudicates background
investigations for government employees and contractors. Within the Office

       17  28 C.F.R. § 17.11(c) and Executive Order 12968 grant the Department the
authority to grant, suspend, and revoke security clearances and to delegate its authority
to the components. In 5 C.F.R. § 731, OPM delegated agencies the authority to
adjudicate Public Trust positions.


U.S. Department of Justice                                                             7
Office of the Inspector General
Evaluation and Inspections Division
of Information Safeguards and Security Oversight, the Compliance Review
Team conducts both scheduled and unscheduled on-site security reviews of
DOJ components. Appendix III details SEPS’s organizational structure.

      SEPS also manages the Justice Security Tracking and Adjudication
Record System (JSTARS), a web-based personnel security processing
application that tracks background investigations, adjudications,
reinvestigations, and reciprocity requests across the Department. Select
components have direct access to JSTARS, while other components receive
monthly update reports from SEPS. The majority of components moved their
data to JSTARS by the end of 2011. The remaining components, except the
FBI, are scheduled to move their data to JSTARS in 2012. The FBI stores its
personnel security data in a classified system that is not compatible with
JSTARS. As a result, the FBI will report its personnel security data to
JSTARS, but will continue to use internal FBI systems to track personnel
security data.

      The following sections describe the three primary personnel security
processes used within the Department.

Background Investigations Completed by OPM

      Many Department components, including JMD and the OIG, rely on
OPM’s Federal Investigative Services (FIS) to conduct background
investigations. FIS, in fact, conducts the background investigations for
most of the Department’s employees, except for attorneys, political
appointees, and employees of the FBI and ATF.18 FIS initiates the
background investigation process after an agency submits an individual’s
completed security application via e-QIP, along with a set of fingerprint
cards and signed release forms authorizing FIS to conduct an
investigation. FIS reviews the e-QIP application to ensure it is complete
and includes all the required documentation.19 Once FIS receives all the


       18  OMB delegated authority to OPM’s FIS to conduct background investigations for
the federal government (Executive Order 10450 on Security Requirements for Government
Employment and Executive Order 12968 on Access to Classified Information). FIS provides
investigative services for 126 federal agencies and conducts approximately 2.2 million
background investigations a year. It conducts high-level investigations for access to National
Security Information as well as the lower-level checks required under the Homeland Security
Presidential Directive 12 (HSPD-12) for anyone accessing federal space or information
systems.

       19 If information is missing, OPM’s FIS returns the application to the agency.
According to OPM, only 6 percent of the application forms submitted through e-QIP are
returned due to missing information. OPM believed the return rate for forms that are
submitted on paper is around 55 percent.


U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
required information, the e-QIP system validates the forms and an
investigation is scheduled within 24 hours. OPM uses contractors to
conduct the investigation. When the investigation is completed, FIS
releases the information to the agency that requested the investigation.

       The completed investigation is forwarded to the appropriate
adjudicating authority for a decision. According to federal regulations, the
agency must report its adjudicative determinations to OPM within 90 days
of receiving the completed investigation.20

Background Investigations Completed by the FBI

      The FBI conducts the background investigations for its own
employees and also makes the adjudication determinations.21 The FBI’s
Security Division handles personnel security for FBI employees.22

      An FBI background investigation includes completing and
submitting security forms in e-QIP, a urinalysis examination, a personnel
security interview, and a polygraph examination. All FBI applicants must
pass a polygraph examination as part of agency-specific qualifications.
Certain positions may also require the applicant to pass a physical or
medical examination.

      The field office reviews the forms for completeness, notes any
derogatory information, and forwards the forms to the appropriate Security
Division unit. The unit assigns a case manager who is responsible for
monitoring the file throughout the security clearance process. The case
manager initiates the background investigation, schedules the interview
leads for the contractor investigators or an FBI agent assigned to the



       20   5 C.F.R. § 732.302(b) and Executive Order 10450.
       21 The FBI’s authority is derived from 5 U.S.C. §§ 3301 and 9101 and from
Executive Order 10450 on Security Requirements for Government Employment and
Executive Order 12968 on Access to Classified Information.

       22  Within the Security Division, separate staffs handle different types of
employees. For example, two Professional Staff Clearance Units are responsible for all
professional staff and specialty hires, such as intelligence analysts, surveillance
specialists, FBI attorneys and interns. The Special Clearance Unit (SCU) conducts
background investigations for FBI special agents, while the Special Inquiry and General
Background Investigations Unit (SIGBIU) conducts background investigations for non-FBI
attorneys. Each staff operates independently of the others and has an intake function,
an investigative function, an adjudicative function, and a process function.



U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
investigation, and makes the final adjudication determination.23 All FBI
employees are cleared at the Top Secret level, and there are no Public
Trust positions in the FBI.24

Background Investigations Completed by ATF

       ATF conducts the background investigations for its employees and
makes the adjudication determinations under authority delegated to it by
OPM. ATF’s Personnel Security Branch, located at headquarters, centrally
manages the security clearance process. ATF’s field offices have very little
involvement. The Personnel Security Branch initiates its security process
for a new employee in response to a request from the Office of Human
Resources and Professional Development. The branch reviews the request
to ensure the applicant meets ATF’s agency-specific qualifications.25 All
ATF positions are considered to be National Security Information
positions, and most ATF employees require a Top Secret clearance. ATF
does not have any Public Trust positions.

       The Personnel Security Branch is also responsible for scheduling the
background investigation for the applicant. ATF uses either independent
contract field agents or OPM’s FIS to complete background investigations.
Most are done by ATF contract employees. The contract field agents must
follow a Special Investigator Manual modeled on OPM’s investigations
manual. The Personnel Security Branch monitors the field agents’
investigations to ensure the agents are conducting all the necessary field
work and meeting OPM’s standards.


       23  The FBI’s Background Investigation Contract Service (BICS) Unit is responsible
for managing approximately 1,100 FBI contractors that are tasked with conducting
investigative leads. FBI employees working within the BICS unit review and approve the
completed leads before providing the results to the requesting unit within the Security
Division. However, FBI special agents and other professional support staff may assist
with certain cases, such as a political appointee, or to run local checks.

       24  The FBI also conducts background investigations for the Department’s non-
career Senior Executive Service appointees, Schedule C appointees, attorneys, law clerks,
and all positions in the Office of the Attorney General and the Office of the Deputy
Attorney General in accordance with DOJ Order 2610.2B, Employment Security Order,
Section 12. These investigations are handled by SIGBIU. For these cases, the requesting
agency or component is responsible for collecting the individual’s security forms and
reviewing them for completeness. The agency or component submits these forms to the
SIGBIU, which conducts the background investigation and returns the investigation
result to the adjudicating agency.

       25  ATF’s agency-specific qualifications include a stricter drug policy and
restrictions against hiring individuals involved in alcohol-related businesses or who hold
a current Federal Firearms License.


U.S. Department of Justice                                                            10
Office of the Inspector General
Evaluation and Inspections Division
       The contract field agents can complete investigations for
approximately half the cost of FIS. Using contract field agents also allows
ATF to cancel investigations at any time during the process and pay only
for the portion that has been completed, rather than paying the full cost as
FIS requires. ATF does sometimes use FIS to conduct lower-level
background investigations that do not require field work.

       Once an investigation is completed, a Personnel Security Branch
adjudicator reviews the file and summarizes any issues in a report. The
files and reports are reviewed by the Branch Chief, who can make a
determination on whether to approve the individual for hire.

Prior OIG and Government Accountability Office Reports

      Prior OIG reports found that certain Department components did not
have effective personnel security processes, which resulted in untimely
background investigations and adjudications, personnel having
unauthorized access to sensitive Department data and facilities, and other
problems with the personnel security process. In addition, prior
Government Accountability Office (GAO) reports focused on reforms to the
government security clearance process, removing the Department of Defense
personnel security clearance process from the GAO’s list of high-risk
designation areas, and the need for OPM to improve transparency in its
pricing and to seek cost savings.26




       26   The prior OIG reports were Implementation of the Contractor Personnel Security
Program in Selected Offices, Boards, and Divisions, Evaluation and Inspections Report I-01-
004 (March 2001); Review of the Security and Emergency Planning Staff’s Management of
Background Investigations, Evaluation and Inspections Report I-2005-010 (September
2005); United States Marshals Service’s Use of Independent Contractors as Guards, Audit
Report 05-24 (May 2005); The Federal Bureau of Investigation’s Efforts to Hire, Train, and
Retain Intelligence Analysts, Audit Report 05-20 (May 2005); Background Investigations
Conducted by the United States Marshals Service, Evaluation and Inspections Report I-
2005-002 (February 2005); Follow-up Audit of the Federal Bureau of Investigation’s Efforts to
Hire, Train, and Retain Intelligence Analysts, Audit Report 07-30 (April 2007); The Federal
Bureau of Investigation’s Foreign Language Translation Program, Audit Report 10-02
(October 2009); and Audit of the United States Marshals Service’s Oversight of its Judicial
Facilities Security Program, Audit Report 11-02 (November 2010).

         The prior GAO reports were Personnel Security Clearances: Overall Progress Has
Been Made to Reform the Governmentwide Security Clearance Process, GAO-11-232T
(December 1, 2010); High-Risk Series: An Update, GAO-11-278 (February 2011); and
Background Investigations: Office of Personnel Management Needs Improve Transparency of
Its Pricing and Seek Cost Savings, GAO-12-197 (February 2012).


U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation and Inspections Division
       PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



      The purpose of the OIG’s review is to assess whether the
Department is effectively administering the personnel security process for
employees and contractors to meet component mission and security
requirements. This review consists of two phases. The first phase focused
on government employees, including the time it takes to complete
background investigations and adjudications and the Department’s
success in meeting IRTPA’s timeliness and reciprocity requirements. The
second phase will focus on the specific issues with the contractor
personnel security program and will be covered in a separate, subsequent
report.

        The objectives of the first phase of the review were to assess:

       whether the Department and its components are meeting the
        timeliness and reciprocity requirements of IRTPA for National
        Security Information cases;
       whether the Department and its components are timely in
        processing personnel security cases;
       whether clearances for specific positions take longer to process;
       whether the Department and its components provide effective
        controls over the personnel security process;
       whether the Department provides sufficient oversight of the
        components’ personnel security processes; and
       whether the Department ensures that personnel with access to
        sensitive or classified information possess the appropriate
        background investigation.

      This review examined the Department’s timeliness for the end-to-
end process, regardless of whether the investigative agency was part of the
Department (the FBI and ATF) or outside the Department (OPM).

        Department components we reviewed included ATF, the Antitrust
Division, the Environment and Natural Resources Division, the BOP, the
Civil Division, the Civil Rights Division, the Criminal Division, the DEA,
the Executive Office for United States Attorneys (EOUSA), the FBI, JMD,
the Office of Attorney Recruitment and Management (OARM), the Office of
Justice Programs, the United States Attorneys’ Offices (USAO), and USMS.
Our review included interviews, data analysis, document reviews, and site
visits.

       The review covered the period since the enactment of IRTPA to the
last full fiscal year, specifically fiscal year (FY) 2005 through the first
U.S. Department of Justice                                                  12
Office of the Inspector General
Evaluation and Inspections Division
quarter of FY 2011. We conducted our fieldwork from March 2011
through July 2011.

Interviews

      We interviewed a total of 106 officials and staff members at the
various components’ headquarters and field offices. We also interviewed
Government Accountability Office personnel to discuss its previous reviews
as well as OPM personnel regarding investigation and clearance
procedures. The interviewees are listed in Appendix IV.

Data Analyses and Document Reviews

      We analyzed component data on security and personnel information
from FY 2010 through the first quarter of FY 2011 (October 1, 2009,
through December 31, 2010). We chose this period based on when
agencies were required to meet the current IRTPA guideline. The data
included when the background investigation was initiated, when the
background investigation was completed, when the adjudication
determination was made, the risk or sensitivity level, and the job position.
We also reviewed relevant laws, regulations, policies, procedures, internal
reviews, and a sampling of security files for completed background
investigations. See Appendix V for a detailed description of the OIG’s
methodology used for each analysis.

Site Visits

       We conducted site visits to 14 ATF and FBI field offices, USMS and
USAO district offices, DEA division offices, and BOP confinement facilities
in Los Angeles and Atlanta. We also visited JMD and each law
enforcement component’s headquarters, as well as the Civil Division, the
Civil Rights Division, the Criminal Division, EOUSA, and OARM.




U.S. Department of Justice                                              13
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW 



CHAPTER I: PROCESSING TIMES FOR NATIONAL SECURITY
INFORMATION POSITIONS

       The Department as a whole and many of its components
       did not meet the 60-day IRTPA time guideline for
       processing National Security Information clearances
       during the period of our review.        In addition, the
       Department excludes most attorney positions from its
       timeliness reports. As a result, Department managers
       have lacked information that would have alerted them
       that it takes significantly longer to complete clearances
       for non-FBI attorneys than for other personnel.
       Clearances for certain other key positions in the
       Department also consistently take longer than 60 days
       to process, and as a result, these positions may go
       unfilled for extended periods. The slower processing is
       caused, in part, by factors such as the need to verify an
       individual’s foreign contacts or to resolve credit issues,
       but is also caused by inefficiencies in the Department’s
       process.


The Department as a whole and many of its components did not
meet the 60-day IRTPA time guideline for processing National
Security Information clearances, primarily because of the time
taken to complete background investigations.

       Taken as a whole, it took the Department approximately 81 days to
complete security clearances for the fastest 90 percent of National
Security Information cases.27 This was primarily due to the length of
time it took to complete a background investigation.28 The background
investigation phase alone averaged 66 days to complete, exceeding the

       27  These numbers represent the overall averages for the fastest 90 percent of
cases for the entire Department, rather than the average of 100 percent of the total
investigations completed. We will discuss timeliness for each investigative agency –
OPM, the FBI, and ATF – later in this chapter.

       28  SEPS is responsible for managing the entire security clearance process for
Department personnel. However, OPM conducts the background investigation portion
of the clearance process for some Department personnel. SEPS cannot control how
long OPM takes to complete its background investigations.


U.S. Department of Justice                                                              14
Office of the Inspector General
Evaluation and Inspections Division
IRTPA 40-day timeliness guideline by 26 days. The Department met the
20-day guideline for adjudications, averaging 15 days for that phase of
the process.

      None of the three entities conducting background investigations for
the Department – OPM, the FBI, and ATF – met IRTPA’s 40-day
timeliness guideline. ATF background investigations came closest to
meeting the guideline, averaging 45 days, while OPM averaged 61, and
the FBI averaged 69 days.29

      ATF and the FBI completed adjudications within the 20-day IRTPA
timeliness guideline, with ATF averaging 20 days and the FBI averaging
only 8 days. The rest of the Department exceeded the guideline, on
average by 8 days.30 In terms of total time taken, ATF processed
National Security Information clearances in an average of 64 days, while
the FBI averaged 77 days, and OPM averaged 89 days (Figure 2).31




       29  The OIG also analyzed the slowest 10 percent of all newly hired employee
cases to identify any factors that contributed to additional processing time. However,
this analysis did not reveal trends or patterns that might indicate why these cases took
longer to process.

       30 Cases referred to as “OPM/DOJ” in Figures 2 through 5 are those in which
the background investigations were conducted by OPM and the adjudication
determinations were completed by one of the Department’s components.

       31  These numbers were calculated using the timeliness data the Department
currently reports to ODNI. Attorneys (except for FBI attorneys) were not included in
this analysis because timeliness data for them is not currently reported to ODNI. A
separate analysis of timeliness for attorney clearances is discussed further in Chapter I
of this report.


U.S. Department of Justice                                                            15
Office of the Inspector General
Evaluation and Inspections Division
          Figure 2: Average Timeliness by Investigative Agency, 

              October 1, 2009, through December 31, 2010 



                        Total (n=4,684)   OPM/DOJ (n=1,503)         FBI (n=3,043)        ATF (n=138)



                                                                                       Total 80.3
    Completed
 
                                                                                             OPM/DOJ 88.7
 Security Clearance
 
      Process
                                                                      FBI 76.9
                                                                         ATF 64.4


                                                                         Total 65.8
       Background                                                      OPM 60.7
      Investigation                                                        FBI 69.2
                                                         ATF 44.9


                                   Total 14.5

     Adjudication
                           DOJ 28.0

    Determination
            FBI 7.6

                                       ATF 19.5


                        0            20           40            60                  80            100
                                                         DAYS

Source: OIG analysis.

       The OIG further analyzed, by investigative agency, the average time
of the fastest 90 percent of National Security Information cases to
complete background investigations and adjudications over 5 quarters of
data (Figure 3).




U.S. Department of Justice                                                                              16
Office of the Inspector General
Evaluation and Inspections Division
        Figure 3: Comparison of Security Approvals by Investigative 

           Agency, October 1, 2009, through December 31, 2010 


             OPM                                  FBI                                  ATF

       180                           180                                    180
       160                           160                                    160
       140                           140                                    140
       120                           120                                    120
DAYS




       100                           100                                    100
        80                            80                                     80
        60                            60                                     60
        40                            40                                     40
        20                            20                                     20
         0                             0                                      0




                        Background Investigation               Adjudication Determination 
Source: OIG analysis.

       As the data shows, background investigations completed by OPM
ranged from 52 to 73 days over the 5 quarters we examined. Likewise,
during that period the Department’s adjudication times for OPM’s
investigations was between 20 and 38 days. However, in general, the
background investigation rather than the adjudication determination
caused the Department to exceed the 60-day IRTPA guideline. Similarly,
FBI background investigations consistently exceeded the 40-day IRTPA
guideline, increasing the FBI’s average processing times. Although ATF
had the fastest overall investigation times, ATF’s completion time varied
significantly within each quarter. During the first quarter of FY 2011,
ATF adjudications took longer to complete than the background
investigation, and the entire process averaged 160 days in that quarter.

      Overall, the Department’s time to complete a security approval
improved slightly between the first and fourth quarters of FY 2010, from
82 days to 73 days. However, its time increased to 116 days in the first
quarter of FY 2011. This was primarily due to the fact that ATF and the
FBI took significantly longer to complete cases during this time period
(Figure 4).




U.S. Department of Justice                                                                    17
Office of the Inspector General
Evaluation and Inspections Division
               Figure 4: Timeliness of Completed Security Approvals, 

                    October 1, 2009, through December 31, 2010

                                   Total       OPM/DOJ        FBI           ATF
         180

         160                                                                              159.7
                                                                                          145.7
         140

         120                                                                              116.1
                                    102.2                           100.5
 DAYS





         100                                                                              96.4
                      83.2            93.2         82.5
                  82.4                                                 79.3
          80      81.4             88.0                             73.1
                     78.4                           68.0
          60                                                         71.1
                                   64.3             64.0
          40
                                                   34.0
          20

           0
                FY 2010, Q1    FY 2010, Q2     FY 2010, Q3   FY 2010, Q4           FY 2011, Q1



                                    Cases Processed by Quarter
                                                                                              Total
                                              OPM/DOJ         FBI                 ATF       (all DOJ)
     FY 2010, Qtr 1                               262          444                  22           728
     FY 2010, Qtr 2                               397          508                  32           937
     FY 2010, Qtr 3                               338          740                  58         1,136
     FY 2010, Qtr 4                               309        1,233                  17         1,559
     FY 2011, Qtr 1                               197          118                   9           324
     Total (all quarters)                       1,503        3,043                 138        4,684
    Source: OIG analysis.

       Both ATF and the FBI completed significantly fewer cases in the
first quarter of FY 2011. However, the time to complete these cases
increased. In the first quarter of FY 2011, the FBI completed 118
clearances in an average of 146 days. In the previous quarter, the FBI
completed more than 10 times that number in half the time (71 days).
An FBI Security Division official stated that at the end of every fiscal
year, the division reviews all pending cases and prioritizes them to meet
the FBI’s hiring goals. Cases that can be favorably adjudicated more
quickly are completed in the fourth quarter of the fiscal year, while cases




U.S. Department of Justice                                                                              18
Office of the Inspector General
Evaluation and Inspections Division
that may take additional time are completed in the first quarter of the
following year.32

       In the first quarter of FY 2011, ATF completed nine cases in an
average of 160 days. In the previous quarter, ATF completed nearly twice
that number, but its average time was 101 days (about a third faster).
ATF security personnel stated that because they were operating under a
Continuing Resolution in the first quarter of FY 2011, they did not have
sufficient funding to pay for new investigations or complete pending
investigations.

      The OIG’s analysis determined that 116 (98 percent) of the FBI
cases and all of the ATF cases completed in the first quarter of FY 2011
took more than 60 days to complete. The 116 FBI cases ranged between
75 and 211 days, and the ATF cases ranged from 90 to 208 days.33 In
contrast, during the fourth quarter of FY 2010, 71 percent of ATF cases
and 57 percent of FBI cases took more than 60 days to complete. As a
result, both ATF’s and the FBI’s average processing times increased.

The majority of security approvals were completed within 6 months.

      We found that the Department failed to complete security
approvals within the established IRTPA timeframes for 69 percent of
cases.34 The majority (61 percent) of cases were completed between 61
and 180 days (Table 4). Only 8 percent of completed cases took more
than 180 days to complete, and less than 1 percent took more than a
year to complete.35




       32   The OIG was not able to verify if this was a trend because data from the
fourth quarter of FY 2009 was outside of the scope of this review and the requirement
to complete 90 percent of clearances in an average of 60 days was not implemented
until the first quarter of FY 2010. Prior to this date, IRTPA required only 80 percent of
clearances to be completed in an average of 120 days.

       33  The OIG also determined that neither the FBI nor ATF initiated any new
investigations during the first quarter of FY 2011 (October 1, 2010, through
December 31, 2010). Instead, they completed cases that had been in process from prior
quarters.

       34  For this portion of our analysis, the OIG analyzed 100 percent of National
Security Information cases.

       35 See Appendix VI for a breakdown of National Security Information cases by
quarter and by investigative agency.


U.S. Department of Justice                                                              19
Office of the Inspector General
Evaluation and Inspections Division
       Table 4: Time to Process Completed Security Approvals, 

            October 1, 2009, through December 31, 2010 


                                              Days in Process
   Investigative                                                       366 days or
      Agency            0-60 days     61-180 days   181-365 days          more
OPM                        374           1,175             170                  21

FBI                      1,155           1,948             206                   8

ATF                         86              50              11                   0

All DOJ (N=5,204)        1,615           3,173             387                  29

Percentage              31.0%           61.0%             7.4%               0.6%

Source: OIG analysis.

      The OIG also analyzed the Department’s caseload to determine
what percentage of cases took more than 60 days to complete in each
quarter (Figure 5).36




       36 This analysis was conducted for the fastest 90 percent of cases to show how
cases that took more than 60 days affected the Department’s timeliness in meeting the
IRTPA standard.


U.S. Department of Justice                                                           20
Office of the Inspector General
Evaluation and Inspections Division
              Figure 5: Security Approvals Exceeding Time Guidelines, 

                            as a Percentage of Caseload, 

                    October 1, 2009, through December 31, 2010 


                                     Total       OPM/DOJ          FBI        ATF
                                                                                        100.0
            100
                                                                                         98.3
             90                        84.1
             80                                      75.4                                 83.0
                                         78.0
 PERCENT





                        72.1                                        71.0
             70           71.0        75.2                                                73.1
                    69.9                                                69.0
             60        63.6                                                60.0
                                                           55.0
             50                                                         57.0
                                                      50.0
             40                       43.8
             30
             20
             10
              0                                      5.2
                   FY 2010, Q1    FY 2010, Q2    FY 2010, Q3      FY 2010, Q4      FY 2011, Q1


Source: OIG analysis.

      For the period we analyzed, 55 percent to 83 percent (an average of
69 percent) of the Department’s caseload consisted of cases older than
60 days. For example, in the fourth quarter of FY 2010, 60 percent of
the cases took more than 60 days to complete, and the Department
completed cases in an average of 73 days. In the first quarter of
FY 2011, 83 percent of the Department’s cases exceeded 60 days, and
the time to complete a case increased to 116 days.37

Cases Pending Over 60 Days

      Our data set for this review included 5,434 National Security
Information clearance cases that fell within the project’s scope.38 Of
these, 1,073 were open and pending at the start of the review period

           Data on the average number of days taken is derived from Figure 4 in this
              37

report. Data on the percentage of cases that took more than 60 days to complete is
derived from Figure 5 above.

          The OIG requested data from the components on all cases that were initiated
              38

on or before December 31, 2010, and were either completed during the time period
covered by our review (October 1, 2009, through December 31, 2010) or were still
missing an adjudication determination at the end of the review period.


U.S. Department of Justice                                                                       21
Office of the Inspector General
Evaluation and Inspections Division
(October 1, 2009). At the end of the review period, 230 cases were open
and were still pending either a background investigation or adjudication
determination.39

      Of those pending 230 cases, 221 had been pending for more than
60 days, and, of those, 87 had been pending for more than a year.
Table 5 shows the days in process for these pending cases.40

                             Table 5: Pending Cases

                                                Days in Process
                                                           181-365       366 days or
    Status of Case         0-60 days     61-180 days        days            more
 Pending Investigation          3              19             22              12
 Pending Adjudication           6              32              61             75
 All DOJ (N=230)                9              51             83              87

Source: OIG analysis.

The Department takes significantly longer to complete clearances
for non-FBI attorneys than for other personnel and does not include
all attorney data in its IRTPA timeliness reports.

      During discussions with the FBI, SEPS, and OARM, and through a
review of the Department’s data, the OIG discovered that data on the
majority of attorney clearances is not included in the Department’s
IRTPA timeliness reports to OPM. SEPS is responsible for working with
OPM to ensure all of the Department’s data, including attorney data is
available for inclusion in performance reports. The Office of the Director
of National Intelligence (ODNI) uses this data to provide the Department
with quarterly feedback reports detailing its performance in meeting
IRTPA timeliness goals. However, we found that only data on FBI
attorneys was being reported to OPM, which amounted to 11 percent (28
of 262) of the Department’s attorney clearances processed during the
period we reviewed. As a result, Department managers were not aware

        39 The OIG confirmed with the components that these cases were considered to

be active or still pending as of April 25, 2011, which was the date components were
required to submit their data. However, based on the data, we could not determine
whether individual cases were pending because of issues in the investigative process or
because they had not yet been reviewed.

       40  See Appendix VII for a breakdown of pending cases by quarter and by
investigative agency. The FBI was not able to provide data for pending cases that were
initiated before May 1, 2010.


U.S. Department of Justice                                                           22
Office of the Inspector General
Evaluation and Inspections Division
that it takes significantly longer to complete clearances for non-FBI
attorneys than for other personnel.

      The OIG analyzed the Department’s reported data and determined
that attorneys accounted for 5 percent of the Department’s completed
clearances during the time period of this review. Figure 6 shows the
Department’s average time in completing the fastest 90 percent of
clearances for attorneys and other personnel. The overall clearance
process for the Department’s attorneys took more than twice as long (210
days) to complete compared with that for other personnel (81 days).
Background investigations, on average, took 94 days for attorneys,
compared with 67 days for other personnel.41 Adjudication
determinations for the Department’s attorneys took almost eight times
longer (116 days) to complete compared with determinations for other
personnel (15 days). However, we concluded that omitting attorney data
did not significantly affect the Department’s overall reported timeliness in
completing security clearances.42




       41 The FBI conducts background investigations for all of the Department’s
attorneys. However, it conducts adjudications only for FBI attorneys, while SEPS
conducts adjudications for the rest of the Department’s attorneys.

       42  Our analysis showed that if attorneys had been included in the Department’s
IRTPA timeliness report, the reported time to complete the fastest 90 percent of
clearances would have increased from approximately 81 days to 83 days during the
period of our review. Including the Department’s attorneys would have had minimal
impact on reported timeliness because most cases would have been among the
10 percent excluded when calculating the fastest 90 percent of clearances processed
under the IRTPA standard.


U.S. Department of Justice                                                         23
Office of the Inspector General
Evaluation and Inspections Division
            Figure 6: Timeliness in Completing National Security 

             Information Cases for Attorneys and Non-Attorneys, 

                October 1, 2009, through December 31, 2010 


                       90% NSI  for Attorneys (N=214)         90% NSI for Non‐Attorneys (N=4684)


                                                                                                209.7

Completed Security Clearance Process
                                                                80.3


                                                                    93.7
              Background Investigation
                                                             65.8


                                                                           116.0
            Adjudication Determination
                                             14.5

                                         0    30        60     90      120        150   180   210   240

                                                                           DAYS
Source: OIG analysis.

      In examining the process, we found that when the FBI completes
an attorney’s investigation, it sends the investigation results, along with
the investigation dates, to OARM.43 OARM completes a suitability
determination based on the completed FBI background investigation and
then sends the results of its determination and the FBI investigation to
SEPS, which makes a security adjudication determination.44

      SEPS uploads the results of these adjudication determinations and
the dates of the investigations into JSTARS. JSTARS is used to report
timeliness data for the Department’s non-attorney hires to OPM.
However, attorney data, along with the time taken to complete each
investigation and adjudication, is not included in the data reported to
OPM.


       43 In accordance with DOJ Order 2610.2B, Section 7, OARM must promptly
make suitability determinations for all Department attorneys. This suitability
determination addresses an individual’s ability to carry out the duties of their federal
position with integrity, efficiency, and effectiveness. The suitability determination is
based on the completed background investigation. However, it is not subject to IRTPA
guidelines and, as a result, fell outside the scope of our review.

       44 The process differs slightly for FBI attorneys. The FBI completes the security
adjudications for FBI attorneys before sending them forward to OARM for suitability
reviews. SEPS is not involved in this process.


U.S. Department of Justice                                                                                 24
Office of the Inspector General
Evaluation and Inspections Division
      Personnel at ODNI, OPM, and SEPS management confirmed to the
OIG that attorney security clearances are subject to the IRTPA guidelines
and data on processing these clearances should be reported to OPM.45
Further, the FBI, OARM, and SEPS told the OIG that they have
discussed at various times the issue of reporting attorney data. OPM
and SEPS stated that there were interface problems with the various
systems used to report the data and they were working toward
implementing a manual process to ensure that attorney data is included.
However, as of December 31, 2011, no solutions had been implemented
and the data was still being excluded from the Department’s timeliness
data. SEPS security staff stated that after IRTPA was implemented, the
issue “fell through the crack.”

Security approvals for attorneys consistently took longer than
60 days to complete.

      Between October 1, 2009, and December 31, 2010, security
approvals for attorneys consistently exceeded the 60-day guideline.
Background investigations for attorney cases took between 16 and 356
days, averaging 99 days to complete. Adjudications took from 2 to 693
days, and averaged 135 days to complete.

      Department attorneys, except for those employed by the National
Security Division and the FBI, typically start work under time-limited
appointments while their background investigations are being
completed.46 According to OARM, such appointments do not exceed
18 months.47 During this time, the FBI conducts background

       45 ODNI is responsible for overseeing the intelligence community, including
issuing guidance and policies regarding National Security Information. ODNI also
measures agencies’ success in meeting the IRTPA guidelines.

       46 Attorneys working for the National Security Division and the FBI are
prohibited from starting work under a time-limited appointment and must wait until
they have an adjudicated background investigation to start work. Unlike other
components, the FBI manages the background investigation and adjudication
determination process for its attorneys and their cases go through OARM only for
attorney suitability determinations. Because this review focused on the end-to-end
process for security clearances, we excluded FBI attorneys from this analysis. Instead,
we included them in the discussion of FBI employees.

       47  According to 5 U.S.C. § 8906(a)(1), 5 C.F.R. § 213.104(a)(1), and the OPM
Federal Employee Health Benefits (FEHB) Handbook, to be eligible for FEHB coverage,
attorneys who have not yet passed their background investigations must be appointed
to time-limited terms in excess of 1 year. If they are not, the attorneys will be viewed as
“temporary” employees and ineligible for FEHB coverage until they have completed
1 year of current continuous employment. To ensure the availability of health benefits
                                                                                    (Cont’d.)
U.S. Department of Justice                                                               25
Office of the Inspector General
Evaluation and Inspections Division
investigations to enable these attorneys to be eligible for National
Security Information clearances.48 Once an attorney’s background
investigation is complete, OARM conducts an internal review of agency-
specific requirements and then sends the investigation to SEPS’s
Personnel Security Group for the security adjudication.49 If the
Personnel Security Group makes a favorable adjudication, the attorney
receives an appointment for a permanent position and is eligible to hold
a security clearance.50

      The OIG calculated the average time to complete a security
approval for a new attorney during the period from October 1, 2009,
through December 31, 2010. Overall, the length of time decreased from
406 to 188 days, an improvement of 218 days between the first quarter
of FY 2010 and the first quarter of FY 2011 (see Figure 7). This was
primarily due to a decrease in the amount of time it took to complete
adjudication determinations. The time to complete adjudications
improved by 68 percent between the first quarter of FY 2010 and the first
quarter of FY 2011, while the time to complete investigations improved
by only 17 percent. Despite the improvement, attorney security
approvals still exceeded the 60-day guideline in all quarters analyzed.
Background investigations took between 3 and 4 months (93 to 116
days) to complete, exceeding the 40-day guideline. However, they were
completed much faster than the 14 months taken in 2007.
Adjudications also consistently exceeded the 20-day guideline for this
phase of the process. In fact, in 4 of the 5 quarters, the adjudication


for incoming attorneys, OARM originally set the time-limited appointments to a period
of 14 months. OARM subsequently expanded this period to 18 months due to delays in
FBI background investigations and the resulting need to extend attorneys’
appointments to keep them on board while the investigations were completed. Louis
DeFalaise, Director, Office of Attorney Recruitment and Management, Memorandum to
Executive Officers of Offices, Boards and Divisions, Revised Memoranda of Agreement
for Attorneys and Law Clerks, January 4, 2007. Although OARM used the term
“temporary” instead of “time-limited” in the Revised Memoranda, it has confirmed that
its use of the term “temporary” was not consistent with the use of the term as defined in
5 C.F.R. § 213.104(a)(1) and that the attorneys are not appointed on a temporary basis.

       48Although the SSBI makes attorneys eligible for security clearances, they do
not automatically receive one unless it is required for their positions.

       49 OARM processes all attorney hires in the Department. However, the FBI
manages the security clearance process for its own attorneys and includes data on FBI
attorneys in its IRTPA timeliness reports.

       50Attorneys are eligible for a permanent appointment as soon as their
background investigation is favorably adjudicated. After an attorney receives a
permanent appointment, the attorney must serve a 2-year probationary period.


U.S. Department of Justice                                                            26
Office of the Inspector General
Evaluation and Inspections Division
determination took longer than the background investigation – averaging
between 4 and 10 months to complete (95 to 294 days).

          Figure 7: Timeliness in Completing Security Approvals for 

           Attorneys, October 1, 2009, through December 31, 2010


                              Background Investigation       Adjudication Determination

          450
                    405.8
                                     398.4
          400

          350

          300                                         274

          250       293.8           282.3
   DAYS




                                                                                      188.2
          200                                        167.0           171.1

          150                                                                         95.4
                                                                      77.6
          100

           50       112.0           116.1            107.0            93.5            92.8

           0
                FY 2010, Qtr.1      
                                FY 2010, Qtr.2      
                                                FY 2010, Qtr.3      
                                                                FY 2010, Qtr.4      
                                                                                FY 2011, Qtr.1      
                    (n= 15)          (n= 28)         (n= 36)         (n= 79)         (n= 76)

Source: OIG analysis.

      On average, security approvals for attorneys were completed before
the expiration of the 18-month time-limited appointment, with most
approvals completed in less than a year during the last 2 quarters of
FY 2010 and the first quarter of FY 2011. This indicates that the 18-
month appointment may no longer be necessary and that the length of
the appointments could be reduced to either the pre-2007 14-month
period or to a shorter time period that more accurately represents the
length of the clearance process.

      The OIG examined the security files for the attorney cases that
took the longest to complete to determine if issues such as foreign
connections or credit affected the length of the security clearance
process. One case took 589 days to complete, with 62 days to complete
the background investigation and 527 days to complete the adjudication.
The other case took 606 days to complete, with 113 days for the
background investigation and 493 days for the adjudication. Neither
case had significant problems or derogatory issues that needed to be

U.S. Department of Justice                                                                             27
Office of the Inspector General
Evaluation and Inspections Division
resolved. However, the case documentation showed that once the
investigations were completed, OARM held the files for 6 to 9 months
before sending them to SEPS’s Personnel Security Group for
adjudication. There was no indication that OARM was using this time to
resolve specific issues or obtain additional information for its internal
review. Meanwhile, these attorneys worked for almost 2 years without
completion of the security clearance process.51 OARM stated that it
considers the end of the 18-month appointment rather than the 60-day
IRTPA guideline to be its deadline for completing an attorney’s security
process. However, this practice causes extreme delays and results in
some attorney clearances exceeding the IRTPA guideline by more than a
year. We found no reason for OARM’s belief that the IRTPA timeliness
guidelines did not apply to its processing of attorney adjudications.

      Leadership in both OARM and SEPS stated that delays in the
security process for attorneys stem from OARM’s limited staffing
resources. OARM has only two full-time staff responsible for processing
cases and sending them to SEPS for adjudication.52 In FY 2010, OARM
received 710 completed investigations from the FBI and, in the first
quarter of FY 2011, it received 300 completed background investigations.
During this time, only 234 attorney security adjudications were
completed. OARM stated that between September 2010 and the spring
of 2011, it had an additional attorney on a detail assignment to complete
adjudications. The OIG’s data showed that the average timeliness for
attorneys improved by 53 days during this time period. However, OARM
no longer has the detail position and, due to budget restrictions, has not
been able to hire additional staff.

      Aside from limited resources, OARM also lacks an efficient process
for managing its workload of attorney investigations and sending them to
SEPS for adjudication. The OIG looked at other component processes.
For example, EOUSA’s process for non-attorneys hired to work in EOUSA
and the U.S. Attorneys’ Offices. Like attorneys, these employees receive
an internal review of agency-specific requirements by EOUSA. However,
instead of waiting for EOUSA to complete its review, SEPS adjudicates a
case as soon as the investigation is complete. If there are any significant

       51  If attorneys require access to classified information before their background
investigations are completed, they may be granted interim clearances. However, the
interim clearances are not based on full background investigations.

       52 In addition to adjudicating completed background investigations, these two
individuals also review pre-employment waivers for attorneys and law student interns.
OARM stated that it received a total of 1,892 waiver requests between the first quarter
of FY 2010 and the first quarter of FY 2011.


U.S. Department of Justice                                                             28
Office of the Inspector General
Evaluation and Inspections Division
issues, SEPS sends the case to EOUSA security staff. However, if there
are no issues, SEPS simply adjudicates the file and notifies EOUSA
electronically of its decision. This reduces EOUSA’s workload and
ensures that it is reviewing only the most relevant cases. It also reduces
the possibility that SEPS and EOUSA are duplicating processes by
reviewing each file twice. At the FBI, the security clearance process for
FBI attorneys is completed first by the FBI and the information is then
forwarded to OARM for job-specific review. The OIG believes that OARM
would benefit from a similar process like that at the EOUSA or the FBI.

Security approvals for certain key positions consistently take longer
than 60 days to complete.

       The OIG analyzed the time taken to complete security approvals for
agents, intelligence analysts, and linguists hired between October 1,
2009, and December 31, 2010. These positions represent key functions
of the Department and require access to classified information. As a
result, they receive Single Scope Background Investigations and are
subject to the IRTPA timeliness guidelines.

        The time to complete a National Security Information clearance for
agents, intelligence analysts, and linguists exceeded the 60-day guideline
for all quarters analyzed.53 For each of these job series, this increase
was due to the time it took to complete background investigations.
Additionally, adjudications for linguists were significantly longer when
compared with the other positions.

Timeliness for New Agent, Intelligence Analyst, and Linguist Hires

      Many positions allow employees to start under a waiver while their
background investigations are being completed. However, individuals
hired into agent, intelligence analyst, and linguist positions generally
cannot start work until their background investigations are completed
and have been favorably adjudicated. Although these positions are
eventually filled with applicants whose background investigations have
been favorably adjudicated, the time it takes the Department to fill them
is negatively affected by the length of time it takes to complete a security
clearance.




       53 This represents the timeliness for 100 percent of agent, intelligence analyst,
and linguist cases.


U.S. Department of Justice                                                             29
Office of the Inspector General
Evaluation and Inspections Division
       Previous OIG reports also found that security clearances for
intelligence analysts and linguists were taking a long time to complete, in
part due to the time taken to complete the background investigations.54

Agents

      In this review, we found that the majority (79 percent) of security
clearance approvals for agents exceeded the 60-day guideline in all 5
quarters, primarily due to the length of the background investigations.
Ninety-one percent of background investigations exceeded the 40-day
guideline. However, only 22 percent of adjudications exceeded the 20-
day goal for that phase of the process. This is consistent with the OIG’s
determination that it was the time taken for background investigations,
rather than adjudication determinations that prevented the Department
as a whole from meeting the IRTPA guideline.

       The average time to complete a security approval for an agent
increased by nearly 60 days between the fourth quarter of FY 2010 and
the first quarter of FY 2011, from 98 days to 154 days (Figure 8). All of
the cases completed in the first quarter of FY 2011 exceeded 60 days,
taking between 75 and 352 days to complete. In addition, 96 percent of
these cases were completed by the FBI. The FBI stated that it reviews
pending cases in the fourth quarter of each fiscal year and prioritizes
cases that can be adjudicated quickly to meet its hiring goals, delaying
cases that may take additional time to be completed until the first
quarter of the following year. This may explain the longer processing
times in the first quarter of FY 2011.




       54  The Federal Bureau of Investigation’s Efforts to Hire, Train and Retain
Intelligence Analysts, Audit Report 05-20 (May 2005); Follow-up Audit of the Federal
Bureau of Investigation’s Efforts to Hire, Train, and Retain Intelligence Analysts, Audit
Report 07-30 (April 2007); The Drug Enforcement Administration’s Use of Intelligence
Analysts, Audit Report 08-23 (May 2008); and The Federal Bureau of Investigation’s
Foreign Language Translation Program, Audit Report 10-02 (October 2009).


U.S. Department of Justice                                                                  30
Office of the Inspector General
Evaluation and Inspections Division
               Figure 8: Timeliness of Special Agent Security Approvals, 

                     October 1, 2009, through December 31, 2010 

      180                   Background Investigation          Adjudication Determination
      160                                                                               154.3

      140                                                                                17.3

      120                           107.2
                    103.3                                               98.5
                                                      93.7
  DAYS





      100                            19.6
                    18.9                                                9.2
                                                      11.5
          80
                                                                                        137.0
          60
          40        84.4             87.6             82.2              89.3

          20
           0
               FY 2010, Qtr.1      
                                FY 2010, Qtr.2      
                                                 FY 2010, Qtr.3      
                                                                  FY 2010, Qtr.4      
                                                                                   FY 2011, Qtr.1      
                  (n= 165)          (n= 280)         (n= 211)         (n= 239)         (n= 24)

Source: OIG analysis.

Intelligence Analysts

      The OIG determined that the majority (68 percent) of security
approvals for intelligence analysts exceeded the 60-day guideline
(Figure 9). This was due to the length of time to complete the
background investigation. Eighty-three percent of background
investigations exceeded the 40-day guideline. In contrast, only
10 percent of adjudications took more than 20 days to complete.

       The average time to complete a security approval for an intelligence
analyst increased by nearly 86 days between the fourth quarter of FY
2010 and the first quarter of FY 2011, from 92 days to 178 days. All of
the cases completed in this quarter exceeded 60 days, taking between 71
and 261 days to complete. Most of the intelligence analyst cases
(83 percent) completed in this quarter were conducted by the FBI. The
increased times in this quarter are consistent with the FBI’s explanation
that it processes longer cases in the first quarter of the fiscal year.




U.S. Department of Justice                                                                                31
Office of the Inspector General
Evaluation and Inspections Division
 Figure 9: Timeliness of Intelligence Analysts’ Security Approvals, 

           October 1, 2009, through December 31, 2010 

                              Background Investigation            Adjudication Determination             178.1
       180
       160                                                                                                33.3
       140
                                          112.8
       120            106.7
   DAYS





       100                                 25.0                                      92.3
                      15.3
                                                                                      7.0
           80
                                                                60.6                                     144.8
           60                                                    3.1
           40         91.4                 87.8                                      85.3
                                                                57.5
           20
           0
                 FY 2010, Qtr.1       FY 2010, Qtr.2       FY 2010, Qtr.3       FY 2010, Qtr.4       FY 2011, Qtr.1      
                     (n= 26)              (n= 36)             (n= 126)             (n= 214)              (n= 12)



Source: OIG analysis.

Linguists

       The OIG determined that the majority (87 percent) of security
approvals for linguists failed to meet the 60-day guideline (Figure 10). As
with agents and intelligence analysts, background investigations for
linguists exceeded the 40-day guideline, with 82 percent taking more
than 40 days to complete. However, unlike adjudications for agents and
intelligence analysts, 67 percent of adjudications for linguists exceeded
the 20-day guideline.

       Adjudications for agents and intelligence analysts generally took
between 3 and 33 days to complete, while the majority of adjudications
for linguists took between 30 and 44 days. The Department completed
security clearances for only 39 linguists during the period of our review,
and most (91 percent) were employed by the FBI.55




        Most Department linguists are contractors, which may explain the relatively
            55

low number of employee hires. Contractors will be covered in the second phase of this
review.


U.S. Department of Justice                                                                                             32
Office of the Inspector General
Evaluation and Inspections Division
               Figure 10: Timeliness of Linguists’ Security Approvals, 

                    October 1, 2009, through December 31, 2010 

      180
                             Background Investigation            Adjudication Determination

      160
                                                               145.6

      140            129.8
                                          127.1
                                                               29.8                                     118.5
      120
                     43.7                 32.0
                                                                                    94.7                 35.5
      100
  DAYS





          80                                                                        30.0

          60                                                  115.8
                                          95.1
          40         86.1                                                                                83.0
                                                                                    64.7
          20

           0
                FY 2010, Qtr.1       FY 2010, Qtr.2       FY 2010, Qtr.3       FY 2010, Qtr.4       FY 2010, Qtr.1      
                    (n= 10)              (n= 15)              (n= 4)               (n= 7)               (n= 3)


Source: OIG analysis.

OIG Review of Agent, Intelligence Analyst, and Linguist Security Files

        Human resources and security personnel, both at headquarters
and in the field, stated that security clearance approvals for individuals
with a large number of foreign connections or extensive overseas travel
usually take longer to complete. The investigator may have to conduct
additional work to contact and verify information overseas. In addition,
if the individual has connections to certain countries, the hiring
component may conduct a risk analysis to ensure the individual does not
pose a risk to national security. Security and human resources staff
stated that linguists and intelligence analysts are more likely to have
these types of foreign connections, given the nature of their work.
Although not unique to any specific type of position, significant credit
issues are another common factor that may affect the length of time it
takes to complete a security clearance. Employees must resolve any
outstanding credit issues before they can be granted a clearance. This
may involve showing proof of a payment plan or providing documentation
demonstrating that they have paid down their debts.


U.S. Department of Justice                                                                                           33
Office of the Inspector General
Evaluation and Inspections Division
       The OIG examined security files for some of the longer agent,
intelligence analyst, and linguist cases to determine why it took so long
to process these particular individuals’ security clearances. All of these
cases involved significant foreign connections or credit issues that
extended the security clearance process.56 However, these cases appear
to be isolated instances with extenuating circumstances and are not
necessarily representative of the typical clearance process. For example,
we examined two particularly lengthy cases involving agents:

   	 One of the longest agent cases took 352 days to process, with 337
      days for the background investigation and 15 days for the
      adjudication. The position required a Top Secret clearance with
      Sensitive Compartmented Information access. The individual had
      a large number of foreign contacts through his spouse. During the
      investigation, it was discovered that the individual’s spouse was
      not a U.S. citizen. Based on the documentation in the security file,
      this specific issue added at least 6 weeks to the background
      investigation. As a result of the lengthy investigation time, the
      investigator had to re-run certain checks and reports that had
      expired.

   	 Another agent case took 308 days to process, with 300 days for the
      investigation and 8 days for the adjudication. The position
      required a Top Secret clearance with Sensitive Compartmented
      Information access. The individual had significant credit issues
      that were discovered during the background investigation. This
      included a court-ordered lien. It took 6 months for the individual
      to demonstrate that the credit issue had been resolved.
      Meanwhile, the individual could not receive a clearance or be
      approved to start work. Further, as a result of the lengthy
      investigation time, the investigator had to re-run certain checks
      and reports that had expired.

Both these cases were completed during the first quarter of FY 2011 and
contributed to the increase in average processing times for this period.

      We also examined lengthy cases involving intelligence analysts and
linguists. For example:


       56  The OIG reviewed a total of 50 cases from 9 components. Cases were
selected based on the time it took to complete the investigation and adjudication for
specific job series. We looked at both long and short cases. The OIG also selected
cases based on the investigative agency. Only the cases relevant to initial investigations
for agent, intelligence analyst, and linguist positions are discussed here.


U.S. Department of Justice                                                             34
Office of the Inspector General
Evaluation and Inspections Division
   	 In one of the longest intelligence analyst cases, the background
      investigation took a total of 261 days to complete, and the
      adjudication was completed in less than a day. The position
      required a Top Secret clearance. The individual had significant
      credit issues and was required to provide extensive documentation
      to prove that these issues were resolved. This documentation
      included several years’ worth of bank statements and copies of
      correspondence with creditors. This case was completed during
      the first quarter of FY 2011 and contributed to the increase in the
      average processing times for that period.

   	 A linguist case took a total of 178 days to complete, with 125 days
      for the background investigation and 53 days for the adjudication.
      The position required a Top Secret clearance with access to
      Sensitive Compartmented Information. The individual was born
      overseas and held dual citizenship. The individual also had several
      foreign contacts, including family members, as well as some drug
      issues. The individual’s security file noted that a possible foreign
      influence could exist, which required additional risk analysis.

Conclusions and Recommendations

      The OIG concluded that the Department as a whole is not meeting
the overall IRTPA time guideline of 60 days when completing security
clearances for National Security Information positions, taking
approximately 81 days to complete the security process. This is
primarily due to the length of time taken to complete background
investigations rather than adjudications. The Department failed to meet
the 40-day IRTPA guideline for background investigations, averaging 66
days. However, the Department did meet the IRTPA time guideline for
adjudications, averaging 15 days. The majority of cases were completed
within 6 months. Further, the Department reduced its pending caseload
by 79 percent during the time period covered by this review.

      The Department does not include all attorneys in the data reported
to OPM to measure the Department’s timeliness against the IRTPA
guideline. Although SEPS uploads investigation and adjudication
information for attorneys into JSTARS, it does not report all of this data
to OPM. Consequently, Department managers were not aware that it
takes significantly longer to complete security clearance approvals for
Department non-FBI attorneys than for other personnel.

      Security clearance approvals for attorneys, agents, intelligence
analysts, and linguists exceeded the 60-day guideline. Adjudications for
agents and intelligence analysts were completed within the 20-day

U.S. Department of Justice                                             35
Office of the Inspector General
Evaluation and Inspections Division
guideline. However, both background investigations and adjudications
failed to meet the timeliness guideline for attorney and linguist positions.
Issues such as connections to foreign countries or significant credit
problems seemed to cause delays in completing clearances for agents,
intelligence analysts, and linguists. However, a review of the longer
attorney cases showed that inefficiency in OARM’s process caused delays
in attorney security clearances.

      To improve the Department’s ability to be timely in completing the
security clearance process, we recommend that:

   1. OARM work with SEPS to develop and implement a process for
      reviewing and adjudicating non-FBI attorney investigations to meet
      the IRTPA timeliness goals;

   2. OARM reduce the time-limited appointment waiver period from 18
      months to 12 months and 1 day to complete suitability
      determinations;

   3. OARM increase the amount of staff dedicated to processing 

      completed investigations; and 


   4. SEPS work with OPM, FBI and OARM to ensure that all of the
      attorney background investigation and adjudication data is
      included in the Department’s IRTPA timeliness reports.




U.S. Department of Justice                                               36
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER II: TIMELINESS FOR PUBLIC TRUST POSITIONS

       The Department’s time to complete Public Trust cases
       increased 92 percent from 99 to 190 days during the
       period of our review. Public Trust employees start work
       under a waiver while their cases are processed. As a
       result, these individuals routinely work in the
       Department, with access to sensitive information and
       systems, for significant periods of time without
       completed background investigations and adjudications.


The Department’s time to complete Public Trust cases has
increased, and as a result, employees routinely have access to
sensitive information and systems for significant periods without a
completed background investigation or adjudication.

      Overall, the time to complete a Public Trust case increased by
91 days from the first quarter of FY 2010 through the first quarter of
FY 2011, from 99 to 190 days (Figure 11). The time to complete
background investigations for Public Trust positions increased from
48 days to 97 days. Likewise, the time to complete Public Trust
adjudications increased from 51 days to 93 days. During the first
quarter of FY 2011, the number of cases completed decreased by
19 percent, compared with the previous quarter. However, the
Department’s time to complete adjudications increased by nearly
20 days.




U.S. Department of Justice                                               37
Office of the Inspector General
Evaluation and Inspections Division
        Figure 11: Department Timeliness in Completing Public Trust 

             Cases, October 1, 2009, through December 31, 2010 

                         Background Investigation           Adjudication Determination
        200                                                                                      190.4


                                                                             149.2
        150                                               139.1
                                                                                                  93.0
                                     120.6
                  98.7                                                        73.7
        100                                               66.4
 DAY





                                      49.9
                  50.9
         50                                                                                       97.4
                                      70.7                72.7                75.5
                  47.8
          0
              FY 2010, Q1         FY 2010, Q2         FY 2010, Q3         FY 2010, Q4         FY 2011, Q1      
                (n= 36)             (n= 379)            (n= 588)            (n= 807)            (n=653)




Source: OIG analysis.

       Employees in Public Trust positions generally start work under a
waiver while their background investigations are being completed. Many
of these individuals are in positions where they are in close proximity to
sensitive systems and information. During the time period analyzed,
individuals in Public Trust positions routinely worked in the Department
for 3 to 6 months without a completed background investigation or
adjudication. The OIG is concerned that this may present a potential
security risk.

       OPM conducts the background investigations for Public Trust
employees, but these background investigations are not subject to any
timeliness standards. OPM, however, requires agencies to report any
actions they took based on an OPM investigation within 90 days of
receiving a completed background investigation. The BOP, SEPS, and
the USMS are the only Department components that adjudicate Public
Trust cases for federal employees. The remaining components use SEPS
to adjudicate their Public Trust positions. Security Managers at the
BOP, SEPS, and USMS told us that they strive to meet OPM’s 90-day
target for reporting their adjudication decisions. ATF, the DEA, and the
FBI do not have Public Trust positions.



U.S. Department of Justice                                                                                        38
Office of the Inspector General
Evaluation and Inspections Division
       Because Public Trust employees start work under a waiver, the
time it takes to complete a Public Trust case does not directly affect the
Department’s ability to bring individuals on board. An OPM manager
stated that because investigations for security clearances have legal
timeliness mandates, OPM considers those investigations to be a higher
priority than background investigations for Public Trust positions.

       We also found that the processing times for some Public Trust
cases exceeded the 1-year probationary period. It took more than a year
to complete the background investigations and adjudications for
3 percent (70 of the 2,463 positions reviewed) of the Public Trust
positions. If derogatory information is not uncovered during the 1-year
probationary period, employees are granted permanent status. If a
background investigation then uncovers derogatory information and the
Department seeks to discharge the employee, that employee has the full
appeal rights of permanent employees. As a result, ensuring the
completion of investigations for Public Trust positions before the end of
the probationary period is important.

BOP Analysis

       Because the BOP represented 74 percent of the total Public Trust
cases examined during the time period of our review, we compared the
time it took to complete a BOP Public Trust case with the rest of the
Department’s completion times (Figure 12).




U.S. Department of Justice                                               39
Office of the Inspector General
Evaluation and Inspections Division
               Figure 12: Time to Complete BOP Public Trust Cases,
                   October 1, 2009, through December 31, 2010
                            BOP (n=1828)       Rest of the Department (n=635)

              60%           55.6%

              50%
                                           44.0%

              40%                                             35.5%
   PERCENT





                                                   33.9%

              30%


              20%   17.2%

                                                                      9.0%
              10%
                                                                                   3.3%
                                                                                          1.6%
              0%
                    0 to 90 Days       91 to 180 Days       181 to 364 Days     365 Days or More

                                            N= 2463

Source: OIG analysis.

      As shown above, 83 percent of BOP Public Trust cases took more
than 90 days (3 months) to complete. Of those, 3 percent (60 cases) took
longer than a year. In contrast, only 44 percent of the rest of the
Department’s Public Trust cases exceeded 90 days, and only 2 percent
(10 cases) took longer than a year. Further, only 11 percent of the
Department’s cases took more than 180 days (6 months) to complete,
compared with the BOP’s 39 percent.

      The OIG also found that the security staff at BOP headquarters
does not review an individual’s security information until the OPM
investigation is completed. Given that 39 percent of BOP cases take
more than 6 months to complete, these individuals are routinely working
in positions with possible access to sensitive information for a
considerable period of time while waiting for the security adjudication
from BOP headquarters.

      We further analyzed the BOP’s timeliness in completing Public
Trust cases from October 1, 2009, through December 31, 2010
(Figure 13). The average number of days to complete a BOP Public Trust
case increased 56 percent (from 132 days to 206 days) during that time
period. The time to complete background investigations increased

U.S. Department of Justice                                                                         40
Office of the Inspector General
Evaluation and Inspections Division
82 percent, from 56 days to 102 days. Adjudications went from 75 days
on average to 104 days on average, a 39-percent increase.

                Figure 13: Timeliness of BOP Public Trust Cases, 

                  October 1, 2009, through December 31, 2010 

                         Background Investigation            Adjudication Determination

                                                                                               205.7
              200
                                                                            171.1
                                                           154.8
              150                                                                              104.2
                      131.5
                                        117.8                                 89.7
       DAYS




                                                            73.9
              100                         42.5
                        75.4


               50                                                                              101.5
                                          75.3              80.9              81.4
                        56.1

               0
                    FY 2010, Q1       FY 2010, Q2       FY 2010, Q3       FY 2010, Q4       FY 2011, Q1      
                      (n= 18)           (n= 260)          (n= 398)          (n= 606)          (n=545)



Source: OIG analysis.

      On average, the BOP met its 90-day goal for completing
adjudications in FY 2010, averaging 70 days. However, it did not meet
the goal in the first quarter of FY 2011. Even though it processed fewer
cases in the first quarter of FY 2011 compared with the previous quarter,
the BOP’s adjudication time increased by nearly 15 days. The trend of
increasing times to complete investigations and adjudications of concern
because, if they are not completed before employees finish their 1-year
probation, the process for removing them if the investigations disclose
disqualifying information becomes much more onerous.

Conclusions and Recommendation

       On average, the Department’s Public Trust cases took more than 6
months to complete. Moreover, the average time to complete a Public
Trust case increased 92 percent between the first quarter of FY 2010 and
the first quarter of FY 2011. The majority of Public Trust cases were the
BOP’s and took significantly longer to complete compared with the cases
from rest of the Department. Only 11 percent of the Department’s cases
took more than 180 days (6 months) to complete, compared with the

U.S. Department of Justice                                                                                      41
Office of the Inspector General
Evaluation and Inspections Division
BOP’s 39 percent. Further, because employees in Public Trust positions
start work under a waiver, they have official access to sensitive
information and systems without having completed background
investigations.

      To further improve the Department’s performance in completing
background investigations and adjudications for Public Trust positions,
we recommend that:

   5. the BOP work with SEPS to establish procedures to improve its
      timeliness in adjudicating Public Trust cases.

   6. SEPS work with components to ensure that approvals for
      individuals in a probationary status are completed prior to the end
      of the probation period.




U.S. Department of Justice                                             42
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER III: PROGRAM OVERSIGHT AND CLEARANCE TRACKING

       SEPS’s oversight of the Department’s personnel security
       processes is not sufficient to identify security violations
       and enforce security policy. Although components track
       data    on    the   status   of   employee     background
       investigations, clearance levels, and reinvestigations,
       the tracking is inconsistent and often incomplete.
       Further, the field does not always have accurate
       information on individuals’ clearance levels or the status
       of their investigations. The lack of information makes it
       difficult to ensure that only individuals with the
       appropriate clearance level have access to sensitive and
       classified information.     Further, reciprocity data is
       inconsistently tracked, not reported, or reported
       incompletely, which made it impossible to determine
       whether      the     Department     applies     reciprocity
       consistently.


SEPS’s oversight is not effective in identifying security violations
and enforcing security policy across the Department.

      SEPS provides Department-wide oversight of the security clearance
program, primarily through its Compliance Review Team. The team
conducts site visits of both headquarters and field offices to determine if
components are complying with the Department’s policies for personnel
(including contractors), document, physical, information technology, and
communications security, continuity of operations, and for occupant
emergency plans, along with the Department’s safety and health
program. Through these reviews, the Compliance Review Team identifies
security violations and provides the components with corrective actions
and recommendations for improving their security processes. The team
shares any issues related to both National Security Information and
Public Trust positions with the SEPS Personnel Security Group.

       The Compliance Review Team completed 54 reviews covering 55
offices in FY 2010 and in the first quarter of FY 2011 (see Appendix VIII).
This is a relatively small number considering that the Department has
over 3,500 offices world-wide. The Compliance Review Team’s abilities
are limited, in part, by having only three full-time staff to conduct site
visits. In addition, the team canceled 27 planned site visits for FY 2011
because of budget cuts.



U.S. Department of Justice                                               43
Office of the Inspector General
Evaluation and Inspections Division
       The Compliance Review Team’s limited capabilities directly affect
SEPS’s ability to enforce DOJ’s security policies. For example, when we
reviewed the BOP’s delegation of authority memorandum, we noted that
SEPS had given the BOP Security Programs Manager authority to sign
pre-employment waivers in 2003. The memorandum stated that the
Security Programs Manager cannot further delegate any of the
responsibilities. However, when the OIG visited four BOP facilities, we
found that the wardens were approving the pre-employment waivers for
employees, with the Security Programs Manager’s knowledge, in violation
of the BOP’s delegated authority.

        The Compliance Review Team conducted 11 reviews of BOP
facilities between 2005 and 2010 but did not uncover this issue because
the team did not look at the BOP personnel security files. A file review is
normally a part of the Compliance Review Team’s procedures. However,
the BOP’s Security and Background Investigation Section (SBIS)
maintains the personnel security files from all BOP facilities at a central
location. As a result, the team could not examine files for the facilities it
reviewed during its site visits, and the team did not request files from the
SBIS for those facilities.57

      In another case, in response to an OIG data request in February
2011, ATF discovered that 24 employees had entered on duty and
worked for almost a year without holding the required security clearance.
The Compliance Review Team had visited ATF headquarters in November
2010, but did not find this or any other unresolved personnel security
issues.58

       Most offices the OIG visited did not mention the Compliance
Review Team when asked about the Department’s oversight activities.
Three security unit chiefs told the OIG they had never even heard of the
Compliance Review Team. Security personnel at ATF, DEA, and FBI field
offices and BOP facilities stated that they are subject to periodic reviews
from their own headquarters that include a review of their personnel
security practices. However, these components do not coordinate their
oversight activities with either the Compliance Review Team or the
Personnel Security Group, nor do they share the results of their internal

        57 SEPS eventually discovered the issue in January 2011. However, it was only

after an SBIS employee raised it during a training session rather than as part of
oversight review procedures or any proactive efforts. As of late August 2011, SEPS and
the BOP were working together to resolve the issue.

       58  ATF personnel told the OIG that the human resources staff had failed to
notify the Personnel Security Branch that the 24 individuals had entered on duty.


U.S. Department of Justice                                                           44
Office of the Inspector General
Evaluation and Inspections Division
reviews with SEPS. The Personnel Security Group Assistant Director
confirmed that SEPS was not aware that the components even had their
own internal review processes. Not sharing results limits SEPS’s ability
to identify Department-wide security issues and trends, effectively
leverage the Compliance Review Team’s limited resources, and reduce the
possibility for duplication between the Compliance Review Team’s
oversight and components’ internal reviews. If such information were
shared, SEPS may attain greater efficiencies and could oversee security
reviews on a broader range of components. In addition, this coordination
could result in potential savings because SEPS may not need to conduct
as many reviews.

Personnel security data is not consistently tracked and managed
across the Department nor made available to the field so that
security staff can ensure that only individuals with the appropriate
clearance level have access to sensitive and classified information.

       Procedures for tracking personnel security data, including data on
clearance levels and reinvestigations, vary significantly throughout the
Department. The FBI uses its Automated Case System to track
background investigations on government employees and to run reports
on those investigations. Similarly, it uses its Facility Security System to
both track background investigations and run reports on those
investigations on contractors and on law enforcement officers from other
agencies who are to serve on FBI task forces. Both systems allow
authorized FBI staff in the field to look up individuals’ clearance levels by
case number and show the status of ongoing cases. Although the BOP,
DEA, and USMS have their own systems for tracking security
information, they do not provide detailed information to personnel in the
field. ATF headquarters officials stated that they send quarterly reports
to field office management. However, the OIG found that Division
Operations Officers, who are responsible for overseeing the personnel
security process in the field, did not always receive the information.

       With the exception of the FBI, most personnel security information
is centralized at component headquarters, and personnel in the field
offices have little to no access to the security data for their employees.
As a result, many of the security personnel in the field offices maintain
their own paper files, spreadsheets, rosters, or databases to aid them in
managing the security information for their employees. To check on the
status of an individual’s clearance, they usually have to contact
headquarters. This can result in the components’ field operations having
conflicting or incomplete information for the individuals they employ. We
found six instances at three different components, described below, in
which security personnel were unaware of overdue reinvestigations or of

U.S. Department of Justice                                                45
Office of the Inspector General
Evaluation and Inspections Division
the clearance levels held by their employees. These problems might have
been avoided if the field had access to its headquarters security
information or better tracking mechanisms.

   	 At two separate ATF field offices, the Division Operations Officers
      responsible for overseeing the personnel security process there
      stated that they believed that all ATF employees had Top Secret
      clearances and therefore, they did not need to regularly check or
      verify the security clearances for employees working in their
      divisions. However, while preparing for the OIG’s visit, one of
      those Division Operations Officers reviewed a roster and discovered
      that at least four individuals whom she believed had Top Secret
      clearances were only cleared to the Secret level. Further, an OIG
      review of ATF data also showed that 25 of the 147 (17 percent) ATF
      employees who had a security clearance completed between
      October 1, 2009, and December 31, 2010, received less than a Top
      Secret clearance. Although we did not find any instances where
      individuals accessed information without the proper clearance
      level, the automatic assumption that all individuals have the same
      clearance level poses a potential security risk.

   	 At the BOP, the SBIS notifies human resources managers in the
      field when employees are coming up for reinvestigation. However,
      the human resources personnel at one BOP facility stated that a
      recent reinvestigations list included one individual who had been
      overdue since 2007 and several employees who no longer worked
      at the facility. These individuals had not appeared on previous
      reinvestigations lists even though they had been overdue for some
      time.

   	 At a USMS field office we were told that a management analyst had
      had a reinvestigation due in 2003. The analyst submitted the
      forms to OPM, but was notified that the forms had passed through
      a post office that was infected with anthrax and were never
      delivered to OPM. The analyst tried unsuccessfully to resubmit the
      forms using e-QIP and eventually sent them through certified mail.
      However, as of June 2011 the analyst still had not received
      confirmation that the reinvestigation was complete. The OIG
      checked OPM’s Central Verification System and verified the
      individual’s most recent reinvestigation was conducted in 2003.
      However, the analyst was due for another reinvestigation in 2008
      that was never initiated. As of July 17, 2011, the analyst was
      working without an active clearance.



U.S. Department of Justice                                            46
Office of the Inspector General
Evaluation and Inspections Division
      Consistent tracking procedures and field access to data would
detect these types of cases. We believe implementing JSTARS will ensure
that security data is tracked consistently across the Department and will
give SEPS greater oversight over components’ timeliness. ATF, the BOP,
DEA, and USMS were scheduled to begin tracking their information in
JSTARS by the end of 2011. Although the FBI will continue to maintain
its own separate system because it has classified data, it planned to start
regularly uploading unclassified data to JSTARS in early 2012.

      While JSTARS should improve the Department’s oversight at the
headquarters level, most field offices will still be unable to view security
data. Currently, only one component plans to use JSTARS capabilities to
improve information sharing with the field. EOUSA is granting limited
JSTARS access to District Security Officers in the U.S. Attorneys’ Offices
nationwide. SEPS specifically recommended that the BOP consider
granting JSTARS access at its facilities. Although, the BOP would
benefit from some of the automation features in JSTARS, it has not made
any plans to implement this recommendation. Because the BOP
currently relies on a paper process to notify facilities when a background
investigation has been adjudicated, the OIG agrees with SEPS that BOP
personnel in the field would benefit from being able to view active cases
in JSTARS.

Reciprocity is not consistently tracked or properly applied, which
can cause delays and increase costs for the Department.

      The reciprocity provision in IRTPA mandates that agencies accept a
background investigation completed by any other authorized federal
investigative or adjudicative agency provided that the clearance is not
temporary or interim, and the background investigation was favorably
adjudicated, was at the right security clearance level for the position, and
was completed within the past 5 years.59

       Reciprocity data is not tracked consistently across the Department.
As a result, we could not determine if components are meeting the
reciprocity requirement outlined in IRTPA and Executive Order 13467.
There is currently no requirement to track reciprocity, which makes it
difficult to determine if efforts are duplicated during the personnel
security process.

     The OIG requested reciprocity data from ATF, the BOP, DEA, FBI,
SEPS, and USMS. The DEA, SEPS, and USMS provided some reciprocity

       59Executive Order 12968 and Executive Order 13381 also include the
requirement for reciprocity.


U.S. Department of Justice                                                  47
Office of the Inspector General
Evaluation and Inspections Division
data. However, the data we did receive did not always contain the type of
background investigation used as the basis for reciprocity. It also was
missing other information, such as the date the individual’s background
investigation was requested, received, or adjudicated. ATF, the BOP, and
the FBI could not provide any reciprocity data.

       Because of the lack of reciprocity tracking data, the OIG reviewed
50 personnel security files to determine if any of these cases were eligible
for reciprocity.60 Of those 50 cases, we found 11 cases where the
individual had a background investigation that met the requirements of
the position and was less than 5 years old. Reciprocity was properly
applied for 10 of these 11 cases. In the one case where reciprocity was
not applied, the component agreed that it erroneously completed a new
investigation.

        Further, we found indications that reciprocity is not always applied
in the field at BOP facilities. In interviews, BOP personnel at four
facilities we visited repeatedly told the OIG that they will initiate a new
background investigation, even if an applicant already has a valid
background investigation. This is a duplication of effort that results in
unnecessary costs and is not consistent with the reciprocity guidelines.
Based on the costs of an initial investigation, failing to apply reciprocity
can result in additional costs ranging from $752 to $4,005, depending on
the investigative agency and the type of investigation.61 If the
Department required components to track reciprocity, it would be able to
mitigate unnecessary spending and ensure that components apply
reciprocity when appropriate.

Conclusions and Recommendations

       Part of SEPS’s responsibility is to use the Compliance Review Team
to provide oversight of the Department’s personnel security process.
Although the Compliance Review Team conducts site visits to determine
the Department’s compliance with security programs, its ability to
conduct routine and follow-up site visits is limited by its resources and
the broad scope of its responsibilities. During FY 2010 and the first
quarter of FY 2011, the team completed 54 reviews at 55 of the
Department’s 3,500 offices. As a result, the Compliance Review Team is
not effective in detecting systemic security process violations or


       60The files were selected across all components. Appendix V details the
methodology used to select and review files.

       61See Appendices II and V for a list of costs by investigative agency and the
methodology used to determine background investigation costs for this report.


U.S. Department of Justice                                                             48
Office of the Inspector General
Evaluation and Inspections Division
Department-wide trends. In addition, there is no requirement for
components to share the results of their internal reviews with SEPS to
assist with identifying security issues Department-wide.

       Methods to track the status of investigations and manage who had
what type of clearance vary by components. We found that not all field
offices have access to their component’s central database of security
clearance information. Those without direct access must request
information from their headquarters, which means clearance
information, is not always readily available. As a result, components do
not always know the status of ongoing clearances, when reinvestigations
are due, or who has which type of clearance. Although some offices
maintain rosters of clearance information, they do not always verify
employee clearances and access levels. As a result, individuals without
the proper clearance level could gain access to sensitive or classified
information.

       The Department requires security clearance reinvestigations every
5 years. Yet, neither the Department nor component headquarters
security procedures require tracking due dates for reinvestigations or
procedures for coordinating with individuals to ensure reinvestigations
are completed. Individuals in the field believed that reinvestigations were
tracked at the headquarters level and that headquarters coordinates
directly with the individual to ensure reinvestigations are completed
when due. However, this does not always happen, and the OIG found
instances where employees with access to sensitive and classified
information had reinvestigations that were past due.

        There is no Department-wide requirement or procedure to track or
measure whether reciprocity is applied. Although, some components
track reciprocity, the information is often incomplete. The lack of
tracking mechanisms prevents the OIG from identifying unnecessary
investigations; however, we found examples of components not applying
reciprocity. For example, officials from the BOP stated that they always
initiate a new investigation, even if an applicant already has a valid
background investigation. If the Department required components to
track reciprocity, it would be able to mitigate unnecessary spending and
ensure that components apply reciprocity when appropriate.

      To ensure that only individuals with the appropriate
clearance level have access to sensitive and classified information,
we recommend that:

   7.	   the Department require components to share internal review
         results with SEPS,

U.S. Department of Justice                                               49
Office of the Inspector General
Evaluation and Inspections Division
   8.	   the Compliance Review Team use the results of components’
         internal reviews to identify trends and recurring personnel
         security problems across the Department and focus on the most
         critical security issues,

   9.	   SEPS increase the amount of staff dedicated to conducting
         compliance reviews,

   10. SEPS ensure that only the BOP Security Programs Manager
       authorize pre-employment waivers, based on the SEPS delegation
       of authority memorandum,

   11. the components develop and implement procedures to ensure
       field offices have access to headquarters’ security information,

   12. the components require each field office to know the type of
       clearance each employee holds on site, and

   13. the Department require components to track and report
       reciprocity data.




U.S. Department of Justice                                                50
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



      The Department as a whole is not meeting the overall IRTPA time
guideline of 60 days when completing National Security Information
clearances for new federal employees. In fact, the Department exceeded
the IRTPA time guideline by 21 days for the time period covered in this
review.

      Security clearance approvals for certain key positions take longer
to complete than others. Our data analysis for agents, intelligence
analysts, and linguists identified specific factors, such as foreign
connections and credit issues, which contribute to the length of the
security clearance process for the individuals hired into these positions.
Non-FBI attorney clearance approvals take more than twice as long to
complete than clearances for other federal employee positions. OARM’s
current entering on duty policy for new attorneys contributes heavily to
the length of the security clearance process. Furthermore, because the
Department does not report timeliness data on all attorneys, Department
managers were not aware that it takes significantly longer to complete
clearance approvals for non-FBI attorneys than for other personnel.

       Completing Public Trust cases more quickly is not a priority. In
fact, the average time to complete a Public Trust case increased
92 percent between the first quarter of FY 2010 and the first quarter of
FY 2011. Roughly 3 percent of the Department’s Public Trust cases took
more than a year to complete. During this time, employees in Public
Trust positions were able to work in the Department, with official access
to sensitive information and systems, but without completed background
investigations. We also found that the majority of Public Trust cases
were for BOP employees. The BOP took significantly longer than the rest
of the Department to complete Public Trust cases. Only 11 percent of
the Department’s Public Trust cases took more than 180 days to
complete compared with 39 percent of the BOP’s cases.

       The Department provides limited oversight of components’ security
clearance processes, in part due to the size of SEPS’s staff and the broad
scope of its responsibilities. As a result, it is difficult to identify the
critical security problems across the Department, determine if
components comply with the Department’s security programs, and
enforce the Department’s security policies.

       Finally, we found that the Department is not tracking the
components’ compliance with IRTPA’s reciprocity mandate and that at
least one component was not in compliance with reciprocity

U.S. Department of Justice                                              51
Office of the Inspector General
Evaluation and Inspections Division
requirements. This can result in delays and unnecessary costs of
between $752 and $4,005, depending on the investigation type.

      To improve the Department’s timeliness in processing
background investigations and adjudications and to ensure that
only individuals with the appropriate clearance level have access to
sensitive and classified information, we recommend that:

   1.	   OARM work with SEPS to develop and implement a process for
         reviewing and adjudicating non-FBI attorney investigations to
         meet the IRTPA timeliness goals;

   2.	 OARM reduce the time-limited appointment waiver period from 18
       months to 12 months and 1 day to complete suitability
       determinations;

   3.	   OARM increase the amount of staff dedicated to processing 

         completed investigations; 


   4.	   SEPS work with OPM, FBI and OARM to ensure that all of the
         attorney background investigation and adjudication data is
         included in the Department’s IRTPA timeliness reports;

   5.	   the BOP work with SEPS to establish procedures to improve its
         timeliness in adjudicating Public Trust cases;

   6.	   SEPS work with components to ensure that approvals for
         individuals in a probationary status are completed prior to the
         end of the probation period.

   7.	   the Department require components to share internal review
         results with SEPS;

   8.	   the Compliance Review Team use the results of components’
         internal reviews to identify trends and recurring personnel
         security problems across the Department and focus on the most
         critical security issues;

   9.	   SEPS increase the amount of staff dedicated to conducting 

         compliance reviews; 


   10. SEPS ensure that only the BOP Security Programs Manager
       authorize pre-employment waivers as prescribed in the SEPS
       delegation of authority memorandum;


U.S. Department of Justice                                                 52
Office of the Inspector General
Evaluation and Inspections Division
   11. the components develop and implement procedures to ensure
       field offices have access to headquarters’ security information;

   12. the components require each field office to know the type of
       clearance each employee holds on site; and

   13. the Department require components to track and report
       reciprocity data.




U.S. Department of Justice                                                53
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX I: ACRONYMS 



ATF 	     Bureau of Alcohol, Tobacco, Firearms and Explosives
BI     	  Background investigation
BICS 	    Background Investigation Contract Service
BOP 	     Federal Bureau of Prisons
DEA 	     Drug Enforcement Administration
DOJ 	     Department of Justice
e-QIP 	   Electronic Questionnaires for Investigations Processing
EOUSA 	   Executive Office for United States Attorneys
FBI 	     Federal Bureau of Investigation
FIS 	     Federal Investigative Services
FY     	  Fiscal year
HSPD-12 	 Homeland Security Presidential Directive 12
IRTPA 	   Intelligence Reform and Terrorism Prevention Act of 2004
JMD 	     Justice Management Division
JSTARS 	 Justice Security Tracking and Adjudication Record System
MBI 	     Moderate Background Investigation
NACI 	    National Agency Check and Inquiries
OARM 	    Office of Attorney Recruitment and Management
ODNI 	    Office of the Director of National Intelligence
OIG 	     Office of Inspector General
OMB 	     Office of Management and Budget
OPM 	     Office of Personnel Management
SBIS 	    Security and Background Investigation Section
SCI 	     Sensitive Compartmented Information
SEPS 	    Security and Emergency Planning Staff
SIGBIU 	  Special Inquiries and General Background Investigations
          Unit
SSBI 	    Single Scope Background Investigation
USAO 	    United States Attorney’s Office
USMS 	    United States Marshals Service




U.S. Department of Justice                                           54
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX II: RISK LEVELS AND COST ASSOCIATED WITH 

  BACKGROUND INVESTIGATION REQUIREMENTS FOR NATIONAL 

    SECURITY INFORMATION AND PUBLIC TRUST POSITIONS 



       Section 731 of Title 5, C.F.R. requires that each Department
position be designated with a risk level depending on the position’s
potential to adversely affect the integrity and efficiency of the agency’s
service. Positions are designated as Public Trust unless access to
National Security Information is required. If the position requires access
to National Security Information, it is assigned a sensitivity designation
of Special-Sensitive, Critical-Sensitive, or Non-Critical Sensitive.
Positions with a Special-Sensitive designation require access to Sensitive
Compartmented Information (SCI) and are assigned to individuals with
Top Secret clearances. Table 6 summarizes the various risk and
sensitivity levels and the background investigation required for each
position.

             Table 6: Risk and Sensitivity Levels and Their Required
                        Background Investigations
                                          Access level                Initial
     Position                                                       Background
    Sensitivity       Risk                             Top         Investigation
      Level           Level    Confidential Secret Secret SCI        Required
                       National Security Information Positions
 Special Sensitive      4                                      X      SSBI
 Critical Sensitive     3                               X             SSBI
 Non-Critical                                                      MBI or BI (5-
                        2             X        X
 Sensitive                                                         year scope)
                               Public Trust Positions
                                                                    BI (5-year
 High Risk              6
                                                                     scope)
                                          NO ACCESS
 Moderate Risk          5                                              MBI
 Low Risk               1                                             NACI

       A single scope background investigation (SSBI) covers the past 7
years of a subject’s activities (or to age 18, whichever is less). It includes
verification of citizenship and date and place of birth, as well as national
agency records checks on the subject’s spouse or cohabitant, interviews
with selected references, and former spouses.

      A 5-year scope background investigation (BI) is similar to a SSBI,
except it only covers the past 5 years of a subject’s activities.




U.S. Department of Justice                                                       55
Office of the Inspector General
Evaluation and Inspections Division
      A moderate background investigation (MBI) consists of a personal
subject interview and written inquiries covering a subject’s employment,
education, credit, and residence.

      A national agency check and inquiries (NACI) investigation consists
of searches covering an individual’s background during the past 5 years.
It does not include a personal subject interview.

      The OIG requested documentation from each of the three
investigative authorities (OPM, the FBI, and ATF) regarding the direct
costs of a completed background investigation. Because cost information
was not available from each investigative authority for each type of
investigation, Table 7 reflects only the costs associated with a moderate
background investigation and a single scope background investigation
when conducted by the OPM, FBI or ATF.

            Table 7: Costs to Complete Background Investigations

   Investigative Agency               SSBI                        MBI

           OPM                        $4,005                      $752
            FBI                       $3,857                        *
           ATF                        $2,200                        *

* The FBI does not conduct any MBIs. ATF has some employees that require an MBI
but ATF uses OPM to conduct those investigations.




U.S. Department of Justice                                                        56
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX III: SEPS ORGANIZATION CHART 





                                         Director
  Financial Management
        Specialist

  Financial Management
        Specialist                    Deputy Director

Administrative Specialist




                       I                                             II
                                                            Assistant Director
             Associate Director
                                                             Justice Command
              Litigation Security
                                                             Center/Continuity
                     Group
                                                                 Assurance



             Litigation Security                            Justice Command
                   Section                                        Center




              I                                                                   I
     Assistant Director             Assistant Director                    Assistant Director
      Justice Protective            Office of Information                 Personnel Security
            Service                    Safeguards and                           Group
                                     Security Oversight


                                              I
      Physical Security             Technical Security                    Policy, Oversight,
        Systems and                      Section                            and Training
     Operations Section                                                        Section
                                      Special Security
     Justice Protective                   Center                     Operations Section
      Service Section
                                        Compliance
     Identification and                Review Team
    Credentials Section
                                    Security Training

                                      Declassification

                                    National Industrial
                                    Security Program




U.S. Department of Justice                                                                     57
Office of the Inspector General
Evaluation and Inspections Division
                         APPENDIX IV: INTERVIEWS 




 Component                                      Position
 ATF                      Chief of Security and Emergency Programs
                          Chief Personnel Security Branch
                          Contractor Team Leader
                          Division Operations Officer
 BOP                      Chief, Security Programs Manager Unit
                          Senior Secure Institution Manager
                          Contracting Officer Technical Representative
                          Contract Specialist
                          Human Resources Bureau Manager
                          Human Resources Specialist
                          Assistant Administrator, Correctional Programs
                          Specialist (Privatization Management Branch)
                          Security Specialist
 Consolidated             Security Programs Manager
 Executive Office
                          Director/Assistant Director of Human Resources
                          Assistant Director of Procurement
 Civil Division           Security Programs Manager
                          Property and Facilities Management Chief
                          Personnel Chief
                          Acting Director for the Office of Litigation
 Civil Rights             Security Programs Manager
 Division
                          Security Specialist (Alternate Security Programs
                          Manager)
                          Human Resources Specialist
 Criminal Division        Director/Security Programs Manager of Security
                          and Operations Staff
                          Physical Security Specialist/Alternate Security
                          Programs Manager
 DEA                      Assistant Deputy Chief Inspector (Headquarters)

U.S. Department of Justice                                                   58
Office of the Inspector General
Evaluation and Inspections Division
 Component                                    Position
                          Division Security Officers
                          Assistant Administrative Officer
                          Division Contracting Officer Technical
                          Representative
                          Personnel Liaison Specialist
 EOUSA                    Chief, Personnel Security Sections
                          Personnel Security Specialist
 FBI                      Unit Chiefs in FBI Security Division
                          Associate Chief Security Officer
                          Human Resources Program Manager
                          Assistant Section Chief
                          Human Resources Assistant
                          Contracting Officer Technical Representative
                          Personnel Security Specialist
                          Administrative Specialist
 Government               Team Leader, Director
 Accountability
 Office
 OARM                     Director
 OARM                     Deputy Director
 OIG                      Personal Security Specialist
 OPM                      Program Managers
 SEPS                     Assistant Director, Personnel Security
                          Assistant Director, Office of Information
                          Safeguards and Security Oversight
                          Chief, Compliance Review Team
                          Security Specialist, Compliance Review Team
 USAOs                    Director of Administration
                          Regional Security Specialist
                          Human Resources Manager
                          Human Resources Officer


U.S. Department of Justice                                               59
Office of the Inspector General
Evaluation and Inspections Division
 Component                                    Position
                          Human Resources Assistant
                          Management Specialist
 USMS                     USMS, Chief Office of Security Programs
                          Administrative Support Specialist
                          Management and Program Analyst
                          Judicial Security Inspectors
                          Contracting Officer Technical Representatives




U.S. Department of Justice                                                60
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX V: METHODOLOGY 



       This review employed a multi-disciplined approach consisting of
evaluation of security policies and procedures, data analysis, case files
review and site visits. We conducted site visits to 14 ATF and FBI field
offices, USMS and USAO district offices, DEA division offices, and BOP
confinement facilities in Los Angeles and Atlanta. We also visited JMD
and each law enforcement component’s headquarters, as well as the Civil
Division, the Civil Rights Division, the Criminal Division, EOUSA, and
OARM.

      Six types of analyses were conducted. The methodology of each
analysis is described below.

National Security Information Timeliness Using the IRTPA
Guidelines

      Our analysis measured the average time to complete a security
clearance for the fastest 90 percent of cases completed between
October 1, 2009, and December 31, 2010, by quarter. We used the
“adjudication complete” date to determine which cases were completed in
each quarter. The data available for analysis contained 5,204 cases.

       We conducted a separate analysis to identify the fastest 90 percent
of cases, within each quarter. A total of 4,684 cases were identified
among the three investigative agencies – ATF (138 cases), the FBI (3,043
cases), and OPM (1,503 cases). These cases were used to calculate the
average time taken to complete background investigations and
adjudication determinations for National Security Information clearances
for the entire Department. This analysis also included a distribution
analysis though which the percentage of the Department’s National
Security Information cases exceeding the 60-day IRTPA guideline was
determined.

      We also analyzed the slowest 10 percent of all newly hired
employees’ cases to identify any factors that contributed to additional
processing time.

      Attorneys (except for FBI attorneys) were excluded from this
analysis because the Department does not report attorney information to
OPM to be included in its timeliness calculations. FBI attorneys (n=28)
were included because the FBI includes attorneys in its IRTPA timeliness
reports. A separate analysis of component attorneys was conducted.


U.S. Department of Justice                                                61
Office of the Inspector General
Evaluation and Inspections Division
Analysis of the Time to Complete National Security Information
Cases

      The OIG analyzed cases that did not have either an “adjudication
completed” date or a “background investigation completed” date. Cases
that did not have an “investigation initiated” date were excluded from our
analysis because we could not determine when the security process
started for those cases. Lastly, we analyzed cases that contained both a
“background investigation completed” date and an “adjudication
completed” date. We discuss each in the following paragraphs.

      No “Adjudication Completed” Date or “Background Investigation
Completed” Date: These cases represent those that are pending an
investigation completion date and have not been adjudicated. These
cases are considered to be active. Cases were assigned an “adjudication
completed” date of April 25, 2011, to calculate how many days the cases
had been pending. The cutoff date was chosen because that was the
deadline the OIG gave components to submit their data.

       Using these criteria, we identified four cases that we considered
still pending either a background investigation or adjudication
determination as of April 25, 2011.

       No “Adjudication Completed” Date: These cases represent those
that have a completed investigation but are pending adjudication. These
cases are considered to be active. Cases were assigned an “adjudication
completed” date of April 25, 2011, to determine how many days the case
had been pending. April 25, 2011, was chosen because that is the
deadline the OIG gave components to submit their data. Cases that were
less than 61 days old were excluded as were Public Trust cases. Using
these criteria, we identified 230 cases that were still pending an
adjudication determination as of April 25, 2011.

       Cases Containing both a “Background Investigation Completed”
Date and an “Adjudication Completed” Date: These cases represent those
have completed all phases of the security clearance process and are not
pending in status. This analysis differs from the previous analysis in
that these cases were not assigned the generic “adjudication completed”
date of April 25, 2011, since each adjudication date is exclusive to an
individual case. We calculated the difference between the “adjudication
completed” date and the “investigation initiated” date to determine the
total number of days taken to complete the security clearance process.
Using these criteria, we identified that 3,589 of the Department’s 5,204
(69 percent) National Security Information cases processed from


U.S. Department of Justice                                                 62
Office of the Inspector General
Evaluation and Inspections Division
October 1, 2009, through December 31, 2010, failed to meet the overall
IRTPA time standard.

Measuring Timeliness for Public Trust Positions

      Our analysis measured the average time to complete a background
investigation and adjudication for Public Trust cases completed between
October 1, 2009, and December 31, 2010, by quarter. We used the
“adjudication complete” date to determine which cases were completed in
each quarter. The data available for analysis contained 2,463 cases.
The average was taken using 100 percent of cases because the IRTPA
timeliness guidelines do not apply to Public Trust positions. Attorneys
were excluded from this analysis because background investigations and
adjudication determinations for attorneys are subject to the IRTPA
timeliness guidelines.

Job Series Analysis

       We conducted a separate analysis to calculate the average time to
complete a security clearance approval for agents, intelligence analysts,
linguists, and attorneys. We reviewed the data submitted by ATF, the
FBI, and SEPS for security clearances completed between October 1,
2009, and December 30, 2010, and identified 919 agent cases, 414
intelligence analyst cases, 39 linguist cases, and 234 attorney cases. FBI
attorney cases were excluded from the attorney analysis because these
cases are contained within the National Security Information timeliness
analysis using the IRTPA guideline.

      The average time to complete a security clearance approval was
calculated for each of the selected job series within each quarter. The
average was calculated using 100 percent of all cases.

Reciprocity Files Review

       We judgmentally selected and reviewed 50 files to determine
whether the Department applies reciprocity according to IRTPA mandates
and Executive Orders. We selected files from each of the three
investigative agencies – the FBI, ATF, and OPM. We selected files for
agents, intelligence analysts, linguists, and attorneys for review because
their clearances typically took longer to complete than those for other
employees. In addition, we reviewed the two cases that were the longest
and shortest to complete for agents, intelligence analysts, linguists, and
attorneys. We also selected BOP files for review to ensure the analysis
included Public Trust files.


U.S. Department of Justice                                                63
Office of the Inspector General
Evaluation and Inspections Division
Background Investigation Costs

       The OIG reviewed FBI, ATF, and OPM background investigation
cost data to identify potential cost savings associated with applying
reciprocity. The investigative agencies submitted data that included
fixed, variable, and indirect costs, but for this report we used only direct
cost data. Direct cost data included costs for activities such as
conducting interviews, compiling interview reports, and travel to and
from interviews. It does not include costs for things such as overhead
support staff, office space, and information system upgrades.




U.S. Department of Justice                                                64
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX VI: TIME TO COMPLETE NATIONAL SECURITY 

   INFORMATION CASES PROCESSED AS PART OF THE FASTEST 

                        90 PERCENT 



      To determine what percentage of the Department’s caseload for the
fastest 90 percent of completed clearances consisted of cases that were
more than 60 days old, the OIG identified cases that took more than
60 days to complete, by quarter, between October 1, 2009, and
December 31, 2010. Table 8 below shows the number of cases, by
quarter, which took 61 days or more to complete all phases of the
security process.

            Table 8: Completed Cases Processed, by Quarter

                                FY 2010, Quarter 1
                    Number of Completed National Security Information Cases
                                          Processed
 Investigative                                                   366 days or
    Agency         0-60 days     61-180 days    181-365 days         more
 OPM                   79            190              10                3
 FBI                  124            334              46                1
 ATF                    8             14                0               0
 DOJ (n=809)          211            538              56                4

                                FY 2010, Quarter 2
                    Number of Completed National Security Information Cases
                                          Processed
 Investigative                                                   366 days or
    Agency         0-60 days     61-180 days    181-365 days         more
OPM                    63            334              35                2
FBI                   126            382              62                2
ATF                    18             14                3               0
DOJ (n=1041)          207            730             100                4

                                FY 2010, Quarter 3
                    Number of Completed National Security Information Cases
                                          Processed
 Investigative                                                   366 days or
    Agency         0-60 days     61-180 days    181-365 days         more
OPM                    83            278              53                1
FBI                   373            390              24                2
ATF                    55              3                0               0
DOJ (n=1262)          511            671              77                3




U.S. Department of Justice                                                 65
Office of the Inspector General
Evaluation and Inspections Division
                                FY 2010, Quarter 4
                     Number of Completed National Security Information Cases
                                           Processed
 Investigative                                                    366 days or
    Agency           0-60 days    61-180 days    181-365 days        more
OPM                     96           234              56                9
FBI                    530           748              36                2
ATF                       5           14                2               0
DOJ (n=1732)           631           996              94               11

                                FY 2011, Quarter 1
                     Number of Completed National Security Information Cases
                                            Processed
 Investigative                                                    366 days or
    Agency           0-60 days     61-180 days     181-365 days      more
OPM                     53            139              16              6
FBI                      2             94              38              1
ATF                      0              5               6              0
DOJ (n=360)             55            238              60              7



     Table 9: Percentage of Fastest 90 Percent National Security 

   Information Cases that Were More than 60 Days Old, by Quarter 

                                      Investigative Agency
                 DOJ                  OPM                FBI                ATF
            More                More               More                 More
           than 60             than 60            than 60              than 60
Quarters    Days       Total    Days      Total    Days        Total    Days      Total
FY 2010,     517       728       183       262      320        444          14     22
Qtr.1       (71%)              (69.9%)            (72.1%)              (63.6%)
FY 2010,     730       937       334       397      382        508          14     32
Qtr.2       (78%)              (84.1%)            (75.2%)              (43.8%)
FY 2010,     625      1,136      255       338      367        740           3     58
Qtr.3       (55%)              (75.4%)             (50%)                 (5.2%)
FY 2010,     928      1,559      213       309      703        1,233        12     17
Qtr.4       (60%)               (69%)              (57%)                  (71%)
FY 2011,     269       324       144       197      116        118           9      9
Qtr.1       (83%)              (73.1%)            (98.3%)               (100%)
Overall     3,069     4,684     1,129     1,503    1,888       3,043        52    138
Totals     (65.5%)             (75.1%)             (62%)               (37.7%)
Note: Percentages in “More than 60 Days” columns indicate the percentage of National
Security Information cases that took more than 60 days to complete.




U.S. Department of Justice                                                          66
Office of the Inspector General
Evaluation and Inspections Division
                    APPENDIX VII: CASES PENDING AS OF 

                              APRIL 25, 2011 



      The OIG identified cases that were still pending as of April 25,
2011. Table 10 shows the number of days each case was pending, by
investigative agency.

            Table 10: Pending Cases, by Investigative Agency 

                                         OPM

                                                 Days in Process
   Status of Case                                                        366 days or
                        0-60 days     61-180 days      181-365 days
                                                                            more
Pending Investigation         3               4                 4              12
Pending Adjudication          6              21                51               63
Total (n=164)                 9              25                55               75

                                         FBI*

   Status of Case                             Days in Process
                        0-60 days     61-180 days    181-365 days        366 days or
                                                                            more
Pending Investigation         0              15                18                0
Pending Adjudication          0              11                10               11
Total (n=65)                  0              26                28               11

                                         ATF 

   Status of Case                             Days in Process
                        0-60 days     61-180 days    181-365 days        366 days or
                                                                            more
Pending Investigation         0                  0                 0             0
Pending Adjudication          0                  0                 0             1
Total (n=1)                   0                  0                 0             1
* The OIG requested cases that were initiated prior to December 31, 2010, and were still
pending as of April 25, 2011. The FBI was able to provide data only on cases that were
initiated between May 1, 2010, and December 31, 2010. The FBI stated that data for
cases initiated prior to May 1, 2010, was unreliable and it was not able to validate it.
The OIG did discover 11 FBI cases in the SEPS security data that had been pending for
366 days or more. The OIG also discovered two additional cases that were pending
between 181 and 365 days but were not included in the FBI’s submission of pending
cases. These cases were included in the SEPS data because they were FBI attorneys.
The OIG included these 13 cases in the table above.




U.S. Department of Justice                                                           67
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX VIII: COMPLIANCE REVIEW TEAM SITE VISITS, 

                       FY 2010 AND FY 2011 



      The Compliance Review Team conducts three types of reviews.
Full compliance reviews are conducted when an office has not been
reviewed within the past 5 years. Follow-up reviews are conducted
within 2 to 3 years of a full compliance review and are usually much
shorter and less invasive. Advice and assist reviews are conducted at the
request of a specific office or a component Security Programs Manager to
provide advice or assistance with a particular security concern or issue.
Table 11 lists the reviews conducted in FY 2010 and FY 2011, Quarter 1.

                Table 11: Compliance Review Team Reviews, 

                    FY 2010 through FY 2011, Quarter 1 

                                               FY 2010              FY 2011, Qtr. 1
                                        Advice     Follow-          Follow-
 Subject of Review                    and Assist     Up      Full     Up      Full
 ATF                                                 5        2        1
 DEA                                                 5        3
 Executive Office of Immigration                              2
 Review
 FBI                                                          7
 Foreign Claims Settlement
                                                              1
 Commission
 DOJ Headquarters                                                               1
 Office for Victims of Crime                                  1
 Office of Information Policy                                 1
 Office of Juvenile Justice and
                                                              1
 Delinquency Prevention
 Office of Legislative Affairs                                                  1
 Office of Professional
                                                                                1
 Responsibility
 Office of the Solicitor General                                                1
 USAOs                                               1        3                 1
 USMS                                     1          1        6                 2
 U.S. Trustees Office                                1        4                 1
 Total                                    1          13      31        1        8




U.S. Department of Justice                                                          68
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX IX: BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 

         EXPLOSIVES RESPONSE TO DRAFT REPORT 



                                                             u.s. Ikpartment of Justice
                                                             Bureau of Alcohol. Tobacco,
                                                             Fircarmsand Explosives

                                                             Office ofthe Director



                                            JUN 1 9 1011




      Michael E. Horowitz
      Jnspector General
      U.S. Department of Justice
      Office orthe Inspector Geneml
      950 Pennsylvania A\·enue. N.W.
      Suite 4706
      Washington. D.C. 20530·0001

       Dear Mr. Horowitz:

      The Bureau or Aleohol. Tobacco. FircanllS and Explosives (ATF) appreciates thl"" opportunity to
      respond to the recommendations from the Omce of the Inspector GenemJ"s report entitled. '"Thc
      Department's and Components' l'ersollZlel Security Processes." A TI' provides the following
      responses 10 Recollllllcndation Numbers 11 and 12.

      Recommendation Nu mber II: The componcnts develop and implemcnt procedures to ensure the
      field offices have acccss to headquartl""rs' security infomlation.

      Response: ATI' concurs with Ihis recommelldalioll. ATI' aequirl-d the JustiCl"" Security Tracking
      and Adjudkation Record Systcm (JST ARS) in OClober 20 I I. ATF's personncl sl"<:urity staff is
      CUITCl1Ily modifying internal procedures and adapting to JSTARS processing act ivil ies and
      methods. It is inlended that ATI"s Division Operations Olliccrs. Special Sl"<:urily Officcrs.
      Human Resources Specialists. and most Contracting Olliccrs' Technical Represemati\"es will
      have access to security information as ··guest"· rolc users in JSTA RS . This is planned to be
      completed during Fiscal YC<lf 2013.

      Recommendation Number 12: The components require each field office to know the type of
      eleamnce I.""ach employee holds OIl si te.

      Resoonsc A rF concurs \\'lth IhlS rl"<:ommcndatlon JSTARS has the capability 10 provide
      reports at the divi sion level: howevl.""r. due to a JSTARS coding I.""rrOT. Airs Ollkl."" of
      Professional Responsibility and Seeurit~· Operations' Personnel Security Bmneh is CUITellily
      PTl'vcntl-d n'om generating quarterl y reports for distribution 10 director..tte and division oniccs.
      The JSTARS prog ram office recogni zc~ the iss ue and i ~ al.""tivdy working to corrcct the problem.




U.S. Department of Justice                                                                                    69
Office of the Inspector General
Evaluation and Inspections Division
                                                             -2-


           Michael E. Horowitz
           Inspector General

           Once resolved, the Personnel Security Branch will begin generating quarterly reports to
           distribute 10 div ision offices. It is anticipated that this will be favorably re ~o lved and
           implemented by October \, 20 12.

           Should you have any questions regarding this response, please contact Assistant Director Julie
           Torres, Office of Professional Responsibility and Security Operations at (202) 648-7500.

                                                         Sincerely,




                                                     B. Todd
                                                     Acting Director




.


     U.S. Department of Justice 
                                                                           70
     Office of the Inspector General 

     Evaluation and Inspections Division 

    APPENDIX X: OIG ANALYSIS OF THE BUREAU OF ALCOHOL, 

       TOBACCO, FIREARMS AND EXPLOSIVES RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Bureau of Alcohol, Tobacco, Firearms and Explosives for its
comment. ATF’s response is included in Appendix IX to this report. The
OIG’s analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

       Status: Resolved.

     ATF Response: ATF concurred with this recommendation. ATF’s
personnel security staff is currently modifying internal procedures and
adapting its Justice Security Tracking and Adjudication Record System’s
(JSTARS) processing activities and methods to provide access to Division
Operations Officers, Special Security Officers, Human Resources
Specialists, and most Contracting Officers’ Technical Representatives as
“guest” role users in FY 2013.

      OIG Analysis: ATF’s actions are responsive to our
recommendation. By October 15, 2012, please provide screenshots
showing that ATF employees in the field have access as “guest” users, a
copy of the reports provided to the field, and verification of JSTARS
deployment to the field.

Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation.
JSTARS has the capability to provide reports at the division level.
However, due to a JSTARS coding error, ATF’s Office of Professional
Responsibility and its Security Operations’ Personnel Security Branch
cannot generate quarterly reports for directorate and division offices.
The JSTARS program office is working to correct the problem. Once the
problem is resolved, the Personnel Security Branch will distribute
quarterly reports to division offices. ATF expected that this would be
accomplished by October 1, 2012.


U.S. Department of Justice                                               71
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: ATF’s actions are responsive to our
recommendation. Please provide confirmation that the JSTARS coding
error has been resolved and that the Personnel Security Branch is
distributing quarterly reports to the directorate and division offices by
October 15, 2012. Please include documents showing the types of
information that will be included in these reports.




U.S. Department of Justice                                              72
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XI: THE FEDERAL BUREAU OF PRISONS RESPONSE TO 

                     DRAFT REPORT 




                                                 u.s. 1);:IlUrt meil t of .Iu~ ti cl'
                                                 h .''(lend Bureau uf Prison\




                                                 Ju l y 9 , 20 1 2




           MEMORANDUM fOR MICHAEL D. GULLEDGE
                          ASSISTANT I NSPECTOR GENERAL
                            FOR EVALUAT I ON AND INSPECTIONS DI VI SION




           fROM :          Ch"lq~"'l"                     Directo

           SUBJECT :       Response to the Office of I nspector Genera l ' s (O l G)
                           Draft Report : The Department ' s and Components '
                           Personnel Security Processes, Assignment Number
                           A-20ll-002

          The Bureau of Prisons (BOP) appreciates the opportunity to r espond
          to the open recommendations from the draft report entitled The
          Department ' s and Components' Personnel Security Pr ocesses ,
          Assignment Number A-2011-002 .

           Please find the Bureau ' s response to the recommendations below :

          Recommendation '5: "To improve the Department ' s timeliness in
          processing background invest i gations and adjudications and to ensure
          that only individuals with the appropriate clea r ance level have
          access to sensitive and classified information , we recommend that :
          the BOP worK with SEPS to es t ablish procedures to imp r ove its
          timeliness in adjudicating Public Trust cases ."

          Re3pon s v: The BOP agrees with the recommendation . The BOP has
          increased the number of staff in the Security BaCKground
          I nvest i gation Section , which has case review and adjudication
          responsibilities . Addit i onally , to improve timeliness of
          adjud ications , whe n issues remain unresolved after due process ,




U.S. Department of Justice                                                              73
Office of the Inspector General
Evaluation and Inspections Division
          Notification/Decision letters will be sent to the responsible Chief
          Executive Officer for administrat i ve action o r retention decision
          within 90 days .

          Recommendation #10: "To i mprove the Department ' s limeliness in
          processing background investigations and adjudications and to ensure
          that only individuals with the appropriate clearance level have
          access to sensitive and classified information, we recommend that ;
          SEPS ensure that only the BOP Security Programs Manager aut horize
          pre-employment waivers, as prescribed in the SEPS delegation of
          authori ty memorandum."

          Response: The BOP agrees with the r ecommendation . The BOP is
          imp l ementing procedures to ensure all pre-emp l oyment waivers are
          authorized by the BOP Security Program Manager prior to the end of
          FY 2012 . Additionally , this will be assisted with the
          implementation of JSTARS .

          Recommendati on #11: "To improve the Department ' s timeliness i n
          process i ng bac kground investigations and adjudications and to ensure
          that only individuals with the appropriate clearance level have
          access to sensitive and classified information , we recommend that :
          the components develop and implement p rocedures to ensure field
          offices have access to headquarters security information . "

          Response :    The gOp agrees with the recommendation . Each field Human
          Rc~ourcc                (HRM) Of fice i~ notified when ~taff at their
                       ~~n~ g emen t
          faci l ity have security clearances added o r changed in order to ensure
          Position Sensitivity Codes are changed in the database .
          Additiona l ly , as part of the National Security Information (NSI)
          clea r ance review , each field office is notified an nually of all staff
          in their f a cility who hold a " Secre t" or " Top Secret " security
          clearance .

          Recommendation #12: "To improve the Department ' s timeliness in
          processing background investiga t ions and adjUdications and to ensure
          that on ly individuals with the appropriate clea r ance level have
          access to sensitive and classified i nformation , we recommend that :
          the COMponents requ ire each f i eld office to kn ow the type of clearance
          each employee holds on site ."

          Respons e: The BOP agrees with the recommendation . Each field HRM
          Office is notified when sta ff at their facility have security
          clearances added or changed in order to ensure Posi t ion Sensitivity
          Codes are reflected appropriately within the NFC database . As part
          of the NSI clearance review , each field office is notified an nua lly




U.S. Department of Justice                                                             74
Office of the Inspector General
Evaluation and Inspections Division
             of all staff in their facility with a "Secret " or "Top Secret "
             $ecurity clearance .

             Recommendlltion 1113 :   "To improvt! LI't! O"'pdrll"""L " :; Li,,,,,11,,,,,:;,; 1"
             processing background investigations and adjudications and to ens,-,re
             that only individuals with the appropriate c l earance level have
             acce,;s to sensiti.ve and classified information , we recorrur.end that :
             the Department require components to track and report reciprocity
             data . "

             Re s ponse:The BOP agrees with the recomrr.endation . The BOP will
             meet the requirements established by the Department of Justice .

             If you have any questions regarding this response , please contact
             H. J . Marberry , Assis t ant Director , Program Review Division , at
             (202) 353-2302 .




U.S. Department of Justice                                                                         75
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX XII: OIG ANALYSIS OF THE FEDERAL BUREAU OF 

                      PRISONS RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Federal Bureau of Prisons for its comment. The BOP’s response is
included in Appendix XI to this report. The OIG’s analysis of the BOP’s
response and the actions necessary to close the recommendations are
discussed below.

Recommendation 5: The BOP work with SEPS to establish
procedures to improve its timeliness in adjudicating Public Trust
cases.

       Status: Resolved.

       BOP Response: The BOP concurred with the recommendation.
The BOP has increased the number of staff in the Security Background
Investigation Section, which has case review and adjudication
responsibilities. Additionally, to improve timeliness of adjudications,
when issues remain unresolved after due process, Notification/Decision
letters will be sent to the responsible Chief Executive Officer for
administrative action or retention decision within 90 days.

       OIG Analysis: The BOP’s actions are responsive to our
recommendation. By October 15, 2012, please provide documentation
that reflects the staffing level before and after the increase to the Security
Background Investigation Section. Please also provide documentation to
show that decision letters for unresolved issues are sent within 90 days
after due process.

Recommendation 10: SEPS ensure that only the BOP Security
Programs Manager authorize pre-employment waivers as prescribed
in the SEPS delegation of authority memorandum.

       Status: Resolved.

      BOP Response: The BOP concurred with the recommendation.
The BOP is implementing procedures to ensure all pre-employment
waivers are authorized by the BOP Security Program Manager prior to
the end of FY 2012. The change in procedures will be assisted by the
implementation of JSTARS.

     OIG Analysis: The BOP’s planned actions are responsive to our
recommendation. Please provide a copy of the new procedures that verify

U.S. Department of Justice                                                 76
Office of the Inspector General
Evaluation and Inspections Division
pre-employment waiver authorizations are signed by the security
managers and verification of the JSTARS deployment, by October 15,
2012.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

       Status: Resolved.

       BOP Response: The BOP concurred with the recommendation.
Each field Human Resource Management (HRM) Office is notified when
staff at that facility has security clearances added or changed in order to
ensure Position Sensitivity Codes are changed in the database.
Additionally, as part of the National Security Information (NSI) clearance
review, each field office is notified annually of all staff in the facility that
hold a “Secret” or “Top Secret” security clearance.

       OIG Analysis: The BOP’s actions are responsive to our
recommendation. By October 15, 2012, please provide verification that
each HRM Office has access to headquarters security information and
provide documentation that all facilities received the annual notification
of staff clearance levels.

Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

      BOP Response: The BOP concurred with the recommendation.
Each field HRM Office is notified when staff at their facility has security
clearances added or changed in order to ensure Position Sensitivity
Codes are reflected appropriately within the National Finance Center
database. As part of the NSI clearance review, each field office is notified
annually of all staff in their facility with a “Secret” or “Top Secret”
security clearance.

      OIG Analysis: The BOP’s actions are responsive to our
recommendation. Please provide documentation that all facilities
received the annual notification staff’s clearance levels By October 15,
2012.




U.S. Department of Justice                                                    77
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 13: The Department require components to track
and report reciprocity data.

       Status: Closed.

      BOP Response: The BOP concurred with the recommendation.
The BOP will meet the requirements established by the Department of
Justice.

      OIG Analysis: In response to our recommendation, which was
directed to the Department, the BOP agreed to follow established
reciprocity tracking and reporting requirements and should coordinate
with SEPS on all related actions. No further status reports are required
from the BOP on Recommendation 13.




U.S. Department of Justice                                             78
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XIII: THE DRUG ENFORCEMENT ADMINISTRATION 

                 RESPONSE TO DRAFT REPORT 




                                                         U. S. Department of Justice
                                                         Drug Enforcement Adm inistrat ion




      www.dea.gov                                        Washington. D.C. 20537




                                                                            JUl - 3 2011

      MEMORANDUM

      TO:             Michael D. Gulledge
                      Assistant Inspector General
                       for Evaluation and Inspections
                      Office of the Inspcc~o
                                           r eneral

      FROM :          Kevin M. Foley                       ~
                      Deputy Chief Inspec                  y-or   ~
                      Office of Inspcctio ns

      SUBJECT:         DEA's Response to the DIG ' s Draft Report: Review of the Department·s and
                       Components · Personnel Security Process. A-201'-002

         The Drug Enforcement Administration (DEA) has re vie wed the Department of lustiee (DOl),
      Office of the Inspector General·s (DIG ) draft report. entitled: Review of the Department 's and
      Components · Personnel Security Process. A-2011-002. DEA ac knowledges DIG 's efforts in
      conducting a thorough rev iew of the management of the pcrsonnel security process at DOJ and its
      components. As a result of this review, DEA concurs with the two re<:ommendalions difC(;ted to the
      DOl components in the draft report and has laken the necessary steps to imp lement the
      recommendations.

         OIG's recommendations I - 10 and 13 were directed to the Department; therefore. DEA
      provides the following responses to the OlG·s recommendations II and 12 directed to the
      components:

            R«ommendation 11 : Tbe componenls develop and implement procedures to ensure field
            offices have access to beadqua rten ' security information.

            DE A Response: DEA concun; and has taken proacti ve steps to accomplish th is
            re<:ommendat ion. As a result of the implementation of the Justice Security Tracking and
            Adjudication Record System (JS T ARS), the Office of Security Programs, Personncl Security
            Section (ISR) implemented requirement s for DEA do mestic offices and foreign regions. The
            Offices must submit updated quarterl y divisional rosters of employees, contractors, linguists,
            Task Force Officers (TFOs), and employees under a Personnel Service Agreement who have
            authorized access to DEA facili ties and/or DEA Infonnation Technology system s, by virtue of
            favorable background investigations and granting of appropriate clearance/access. ISR provide s




U.S. Department of Justice                                                                                    79
Office of the Inspector General
Evaluation and Inspections Division
      Michael O. Gulledge, Assistant Inspector General                                               Page 2

         eac h Division Security Officer (DSO) with an eleetronic sprcadsheet to promote the uniform
         submission of the quanerly divisional rosters. The quarterly divisional roster is a spreadsheet
         that contains iden tifying information, positionljob title, and badge/credential information. ISR
         reviews each roster to verify the accuracy of the data in 1ST ARS and directly corresponds with
         DSOs to confirm the accuracy of the rosters and/or requests of the DSOs for an appropriate
         security package to be updated or submitted. In doing so, fi eld offices have a timcly and
         accurate account of cach individual entering DEA facilities. In the event a security issue arises
         that necessitates immediate headquarters attention, each DSO has a designated point of contact
         withi n ISR to address these security matters.

         Reco mmenda tion 12: The components require tach field office to know the type or
         clearance eac h employee holds on site.

         DEA Res ponse: DEA concurs and has taken proacti ve steps to accomplish this
         recommendat ion. As a results of the implementation of 1STARS, ISR implemented
         requirements of each DSO to maintain a curren t divisional roster, which documents the fluidity
         of the labor force within each DEA facility. Once a favorable adjudication and revicw is
         determi ned by [SR and reported to JST ARS, 1ST ARS automatically forwards a Certification of
         Investigation to the DSO and DEA employee of the type of clearance each DEA employee
         ho lds. In the case of contractors and TFOs, JST ARS automatically forwards a TFO/Contractor
         Approval Leller to the DSO of the type of clearance/access eac h contractor holds. These not ices
         are mainta ined by the DSO.

         Based on the information provided, DEA requests closure of recommendations II and 12. !fyou
      have any questions regarding DEA's response to the OIG's recommendations, please contact the
      Audit Liaison Team at (202) 307-8200.




U.S. Department of Justice                                                                                    80
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XIV: OIG ANALYSIS OF THE DRUG ENFORCEMENT 

                 ADMINISTRATION RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Drug Enforcement Administration for its comment. The DEA’s
response is included in Appendix XIII to this report. The OIG’s analysis
of the DEA’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

       Status: Resolved.

      DEA Response: The DEA concurred with this recommendation.
As a result of implementing JSTARS, the Office of Security Programs,
Personnel Security Section (ISR), implemented requirements for DEA
domestic offices and foreign regions. Those offices must submit updated
quarterly divisional rosters of employees, contractors, linguists, Task
Force Officers (TFO), and employees under a Personnel Service
Agreement who have authorized access to DEA facilities or DEA
information technology systems.

       ISR provides each Division Security Officer (DSO) with an
electronic spreadsheet to promote the uniform submission of the rosters.
The roster contains identifying information, position/job title, and
badge/credential information. ISR reviews each roster to verify the
accuracy of the data in JSTARS and directly corresponds with DSOs to
confirm the accuracy of the rosters or requests DSOs update or submit
an appropriate security package. This provides field offices with a timely
and accurate account of each individual entering DEA facilities. If a
security issue arises that necessitates immediate headquarters attention,
each DSO has a designated point of contact within ISR to address these
security matters.

       OIG Analysis: The actions taken by the DEA are responsive to our
recommendation. By October 15, 2012, please provide a copy of the
template that DSOs will use to report the security information of
employees, contractors, linguists, TFOs, and other employees in their
divisions, and a copy of the policies, memoranda, or other documentation
requiring the DSOs to submit this information on a quarterly basis.



U.S. Department of Justice                                                81
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

       DEA Response: The DEA concurred with this recommendation.
As a result of implementing JSTARS, ISR implemented requirements that
each DSO maintain a current divisional roster that documents the
fluidity of the labor force within each DEA facility. Once a favorable
adjudication and review is determined by ISR and reported to JSTARS,
JSTARS automatically forwards a Certification of Investigation to the
DSO and DEA employee of the type of clearance each DEA employee
holds. In the case of contractors and TFOs, JSTARS automatically
forwards a TFO/Contractor Approval Letter to the DSO of the type of
clearance/access each contractor holds. These notices are maintained
by the DSO.

       OIG Analysis: The actions taken by the DEA are responsive to
our recommendation. Please provide a copy of a Certificate of
Investigation and an Approval Letter as documentation that these actions
have been completed by October 15, 2012.




U.S. Department of Justice                                           82
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX XV: THE FEDERAL BUREAU OF INVESTIGATION 

                 RESPONSE TO DRAFT REPORT 





                                                            U.S.   DCl'artm~nt     or JII5tin

                                                            federal   B~reau    of lnvutigation


                                                            W.,hinglOll. D, C, ~ OSJs·oor))

                                                            July 9, 2012

        TIle Honorable Michael E. Horo ....itz
        Inspector General
        U.S. Ikpanmenl of Justice
        Office of the Inspector General
        950 Pennsylvania Avenue, Northwest
        Washington, D.C. 20530

        Dear Mr. Horowitz:

                       The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
        and respond to your report entitled, "The Depanment's and Components' Personnel SC(:urity
        Processes~ (hereinafter, "Report"),


                       We are pleased you determined that during the period ofthc review the
        Depanmcnt was able to recruit and retain qualified indi viduals to meet mission critical needs.
        As demonstrated to your auditors, the FBI exceeded its hiring goals for Special Agents (SA ) and
        Intelligence Analysts (IA) in fiscal year 2010 successfully placing 914 SAs and 594 lAs
        throughout our nation at multiple FBI Field Offices and FBI Headquarters,

                        While we continual ly strive to improve the timeliness of our clearance process,
        the complexities and intricacies of completing a Top Secret (rS) Natio nal Security Information
        cleararn:e should oot be understated. As your Report concludes, the FBI averaged only eight days
        to adjudicate backgrounds with the bulk of time being expended on conducting the ac tual
        Background Investigation (BI), It also beaI5 noting the FBI has discussed with the Office of the
        Directorate of National Intelligence (DONI) the differences in completing a BI for a Secret
        versus TS clearance. Based upon these discussions, it is our understand ing DONI is currently
        studying the guidelines issued by the Intelligence Reform Qnd Terrorism Prel'enlion Act of 2004
        (lRTI'A) and will li kely issue revised guidelines for TS clearances.

                       Based upon a rev iew of the Report, the FBI eoncurs with yo ur recommendations.
        The FI31 appreciates the professionalism exhibited by your staff to complete this audit. Enclosed
        herein is the FBI's response to the recommendations directed towards the FBI. Please feel free to




U.S. Department of Justice                                                                                  83
Office of the Inspector General
Evaluation and Inspections Division
          contact me should you have any questions.

                                                          Sinccrdy YOUTS,



                                               ~          Assistant Director
                                                          Sccurity Division

          Enclosure




                                                      2




U.S. Department of Justice                                                     84
Office of the Inspector General
Evaluation and Inspections Division
                                               UNCLASS IF IED


                            Department or Ju stice Office of ins pl!1:tor General
                      The Department' s and Components' Personnel Sl!1:urity Proc e!iSC$

           R«omm endatioo #11: "The components develop and implement procedures to
           cns ure field ornees ha ve access to hea dquarters ' security inrormation."

           .'81 Res ponse: Concur - The FBI will ensure that field offices have access to
           headquarters securi ty information (not subject to privacy act), through the following
           systems:
                  •    FB I Employees - Bureau Personnel Management System (BPMS);
                  •    Non-FB I Employees (excluding DOJ) - Faci li ty Security System (FSS); and,
                  •    DOl Employees, FBI Em ployees, and non-FB I Employees - Justice Securi ty
                       Tracking and Adj udication Records System (JST ARS)

           lbc Chief Security Officers (CSO) are aware, and will be advised aga in, that the security
           information requi red to determ ine access \0 FBI space and information systems is
           availabl e in these systems.

           Rl!1:ommendation #12: "The eomponents require each field office to know the type
           or clea rance each employee holds 00 site_"

           FBI Response: Concur - Through the use o f the systcms noted in response to
           Recommendation 11 11 , each FB I field office will kno w the clcarance level and type o f
           clearance fo r each individual (FBI employee and non-FBI emp loyee) with access to FBI
           space and information systems. Thc FB I will ensure cach field office receives thc
           necessary uaining to operate each system. This will be accomplished through
           notification and training orthe CSOS for each field officc.

           R«ommeodalion li B: "The Depa rtment require t ompone nls to lrack and report
           reciprotity data,"

           FBI Re1ipoo se: Concur _ The FB I will track and report cases processed under reciprocity
           policy and guideli nes as required by thc Officc o f Directorate o n National Intelligence
           (CONI). The FB I will accomplish this us ing the FB I's Clearance Processing System
           (C PS).




                                                UNC LASS IFI ED




U.S. Department of Justice                                                                              85
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XVI: OIG ANALYSIS OF THE FEDERAL BUREAU OF 

                 INVESTIGATION RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Federal Bureau of Investigation for its comment. The FBI’s response
is included in Appendix XV to this report. The OIG’s analysis of the FBI’s
response and the actions necessary to close the recommendations are
discussed below.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

       Status: Resolved.

      FBI Response: The FBI concurred with this recommendation.
The FBI stated that it will ensure that field offices have access to
headquarters security information (not subject to the Privacy Act),
through the following systems:

          FBI employees – Bureau Personnel Management System
           (BPMS);
          Non-FBI employees (excluding DOJ employees) – Facility
           Security System (FSS); and
          DOJ employees, FBI employees, and non-FBI employees –
           JSTARS.

The Chief Security Officers (CSO) have been advised, and will be advised
again, that the security information required to determine access to FBI
space and information systems is available in these systems.

      OIG Analysis: The FBI’s actions are responsive to our
recommendation. Please provide documentation to verify CSOs have
access to headquarters’ security information by October 15, 2012.

Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

      FBI Response: The FBI concurred with this recommendation.
Through the use of the systems noted in response to
Recommendation 11, each FBI field office will know the clearance level
and type of clearance for each individual (FBI employee and non-FBI
U.S. Department of Justice                                                86
Office of the Inspector General
Evaluation and Inspections Division
employee) with access to FBI space and information systems. The FBI
stated that it will ensure each field office receives the necessary training
to operate each system. This will be accomplished through notification
and training of the CSOs for each field office.

       OIG Analysis: The FBI’s planned actions are responsive to our
recommendation. Please provide documentation that FBI field offices can
verify employees’ security clearance and access levels by October 15,
2012.

Recommendation 13: The Department require components to track
and report reciprocity data.

       Status: Closed.

       FBI Response: The FBI concurred with this recommendation.
The FBI stated that it will track and report cases processed under
reciprocity policy and guidelines as required by the Office of the Director
of National Intelligence. The FBI stated that it will accomplish this using
its Clearance Processing System.

      OIG Analysis: In response to our recommendation, which was
directed to the Department, the FBI agreed to follow established
reciprocity tracking and reporting requirements and should coordinate
with SEPS on all related actions. No further status reports are required
from the FBI on Recommendation 13.




U.S. Department of Justice                                                 87
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XVII: THE U.S. MARSHALS SERVICE RESPONSE TO 

                       DRAFT REPORT 





                                                                  U.S. Defl artm ent of J us tice

                                                                  Un ited States Marshals Service

                                                                  Associfllc DircclOrjor Operuliolls


                                                                  AlulIm/r;lI, I'irgilliu llJOI · IO]j

                                                               July9.2012




               MEMORAN DUM TO:          Michael D. Gulledge
                                        Assistant Inspector General
                                         for Evaluation and lnspcetion

                            FROM:       E"'b<~"::,'g~Associate
                                                     ""''-?"        ?<~-~.nL---
                                                               Director for Opcrnllons

                         SUBJECT:       USMS Comments on Review of the Department's and
                                        Component ' s Personnel Security I'roccss, Rcport Numocr
                                        A·2011 · Q02


                 This is in response to your recent memorandum dated June 20. 20 12. regarding the
         subjcct report.

                  Should you ha\"e any questions rcg:lTding this responsc. plcasc contact Ms. Isabel Howdl
         at 202-307-9744.

         Anachments

         ee:     William D. Snelson
                 Assistant Director
                 Tactical Operations Division

                  Donald O- Heam
                  ChicfofStafT

                  Isabel Howell
                  E"temal Audit Liaison Team
                  United States Marshals Servicc

                  Louise Duhamd
                  Acting Director. Audit Liaison Group
                  Justice Management Division

                  Mary T. Myers
                  Audit Liaison Specialist, Audit Liaison Group
                  Justice Management Division




U.S. Department of Justice                                                                                   88
Office of the Inspector General
Evaluation and Inspections Division
                                 USMS Comments on Recommendations
                       The Department's and Components' Personnel Security Processes
                                        Report Number A·2011·002


        Recommendation 11 (Concur): The components develop and implement procedures to ensure
        field offices have access to headquarters' security information.

        Recommendation 12 (Concur): The components requi re eac h field office to know the type of
        clearance each employee holds on site.

        USMS Responsc: The United States Marshals Service (USMS) concurs with both
        Recommendations II and 12 and has taken steps to ensure that district field office personnel can
        more readily oblain personnel security information.

        First, background investigations are processed and adjudicated by the Office ofSe<:uri ty
        Programs (OSP) at USMS Headquarters. OSP staff maintains and tracks security information in
        the Justice Security Tracking and Adjudication Record System (JST ARS) and Marshals
        Workforce Information SystemlExchange (M·W ISE). District field offices have access to the
        M-W ISE system. Chief Deputy United States Marshals (Chiefs) and distri ct Administrative
        Officers (ADs) can view background data for their district personnel through M·WISE. OSP is
        working with M·WISE staff to grant the Chiefs and ADs additional M·WISE access, which
        would include the Investigation Report. In addition, each employee can view his or her personal
        information page on M·WISE, which includes information such as clearance level and
        reinvestigation due date.

        Second, every district has a District Security Program Officer (DSPO) who serves as a liaison
        between the district and Headquarters regarding security matters. The DSPO is responsible to
        the Agency Security Program Manager for implementation and administration of security
        programs as delegated and assigned. One primary duty involves maintai ning a current list of
        employee clearance levels and a centralized database for rei nvestigations at Headquarters, in
        addition to other security·related duties. The USMS intends to encourage the DSPOs to maintain
        a regular dialogue with Headquarters to ensure that personnel securi ty information is available to
        the Districts.

        Further, OSP staffis readily available to provide direction and information to district field
        offices. Employees are advised at the conclusion of their five· year reinvestigat ion of clearance
        level and next reinvestigation due date. In addition, prior to each fiscal year, OSP generates and
        maintains a master list of all employees requiring a reinvestigation for the upcoming fiscal year.

        Finally, we strive for open communication and transparency. Guidance on security matters is
        posted on the USMS Intranet, reiterated throughout the year in training, and detailed in Agency
        policy.




U.S. Department of Justice                                                                                    89
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XVIII: OIG ANALYSIS OF THE U.S. MARSHALS SERVICE 

                        RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the U.S. Marshals Service for its comment. The USMS’s response is
included in Appendix XVII to this report. The OIG’s analysis of the
USMS’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

       Status: Resolved.

      USMS Response: The USMS concurred with this
recommendation. The USMS stated that it has taken steps to ensure
that district field office personnel can more readily obtain personnel
security information. Background investigations are processed and
adjudicated by the Office of Security Programs (OSP) at USMS
headquarters. The OSP staff maintains and tracks security information
in JSTARS and the Marshals Workforce Information System/Exchange
(M-WISE). District field offices have access to the M-WISE system. Chief
Deputy U.S. Marshals (Chiefs) and district Administrative Officers (AO)
can view background data for their district personnel through M-WISE.
OSP is working with M-WISE staff to grant the Chiefs and AOs additional
M-WISE access, which would include the Investigation Report. In
addition, each employee can view his or her personal information page
on M-WISE, which includes information such as clearance level and
reinvestigation due date.

       Further, the USMS stated that the OSP staff is readily available to
provide direction and information to district field offices. Employees are
advised at the conclusion of their 5-year reinvestigation of their clearance
level and next reinvestigation due date. In addition, prior to each fiscal
year, OSP generates and maintains a master list of all employees
requiring a reinvestigation in the upcoming fiscal year.

      OIG Analysis: The actions taken by the USMS are responsive to
our recommendation. However, we believe that the district field offices
should be aware of when their employees are due for a reinvestigation
and that this information should not be limited to headquarters. By
October 15, 2012, please provide screenshots showing the specific
M-WISE data fields and reports that district field offices are able to

U.S. Department of Justice                                                90
Office of the Inspector General
Evaluation and Inspections Division
access, as well as a description of how OSP plans to share information
regarding employee reinvestigations with the field. Also please provide
verification that District Security Program Officers (DSPO) are aware of
the periodic reinvestigation date for each employee in their districts.

Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

       USMS Response: The USMS concurred with this
recommendation. Every district has a DSPO who serves as a liaison
between the district and headquarters on security matters. The DSPO is
responsible to the Agency Security Program Manager for implementation
and administration of security programs as delegated and assigned. One
primary duty involves maintaining a current list of employee clearance
levels and a centralized database for reinvestigations at headquarters, in
addition to other security-related duties. The USMS stated that it
intends to encourage the DSPOs to maintain a regular dialogue with
headquarters to ensure that personnel security information is available
to the districts.

      OIG Analysis: The actions taken by the USMS are responsive to
our recommendation. Please provide a copy of the USMS policy
documents describing the DSPO’s requirement to maintain a current list
of employee clearance levels by October 15, 2012. In addition, please
provide documentation showing how the USMS intends to facilitate
communication between headquarters and the DSPOs.




U.S. Department of Justice                                                 91
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX XIX: THE SECURITY AND EMERGENCY PLANNING 

             STAFF RESPONSE TO DRAFT REPORT 





                                                             U.S. DepartmcD t of Justice

            I)                                               Justice Management Division

                                                             Security and Emergency Planning Staff

                                                             WlJJhlngtOfl. D.C 20530


                                                                JUN 1 9 IOU


         TO:           M ICHAEL D. GULLEDGE
                       ASSISTANT INSPECTOR GENERAL
                          FOR EVALUATIO AND INSPECTIONS DIVISION

         FROM,         JAM ES L. DUNLAP
                       DEPARTMENT SEC             TY OFFICER
                                                                 ~.      D......J2..'::>
                                                                              - .      . -,

         SUBJECT:      Response to OIG's Report Entitled: Review o/the Depar/ment's and
                       CQmponenl ',s Personnel Security Processes, Assignmem Number A·}OJ l·OO}

         lbis responds to the OIG's report entitled: Review a/the Department '.I' and Component 's
         Personnel Security Processes, Assignmcnf Number A-201 J·002.

         I welcome and appreciate thi s review regarding the personnel security process in the Depanment.
         The DiG staffwas very thorough and their professionalism was greatly appreciated. As
         requested. I will address the repons's recommendations and provide the appropriate plan of
         action for each recommendation. I would like to take this opportunity to highlight some
         concerns we have regarding this report, and I provide them below for the permanent record.

         The methodology used in the review and presented in the Draft combines both the investigative
         timeliness and adjudicative timeliness elements. With the exception of the Federal Bureau of
         Investigation (FBI) and the Alcohol, Tobacco, Firearms and Explosives (ATF), the Department
         is only held accountable for achieving the adjudicative timeliness element required in the 2004
         Intelligence and Terrorism Prevention Act (IRTPA). All other Department components utilize
         the U.S. Office of Personnel Management (O PM) and, therefore, are not accountable for OPM's
         investigative timeliness. Progress reports received from the Office of the Director of National
         Intelligence (OONI), the entity responsible for ensuring government IRTPA compliance, clearly
         indicate this fact. The OONI reports state that OPM is responsible for the investigative
         timeliness for the non FBIIA TF reports. In thls Draft, the OIG acknowledges that the
         lkpar(mem mel (he 20-day guideline/or adjudication, averaging /6 days/or that phase o/the
         process. It is our concern that the OJG, in this report is holding the Department to different
         standards than the OONI expects from the 001. The fact that the review shows that the
         Department's adjudication timeliness averages 16 days should be celebrated; no' buried within
         the report.

         The OIG utilized data from thi s review from FY 2010 and ,SI Quarter ofFY 2011. This isa
         concern because the current reports from OPM and the OONI show much improvement; making
         the OIG findings regarding the Department's timelines obsolete. The Security and Emergency




U.S. Department of Justice                                                                                  92
Office of the Inspector General
Evaluation and Inspections Division
         Memorandum for Michael D. Gulledge                                             Page 2
         Subject: Response to DIG's Report Entitled: Review of the Department's and Component's
         Personnel Security Processes, Assignment Number A-2011-002

         Planning StafT (SEPS) continues to make IRTPA adjudication timeliness one of its priorities and
         monitors components' progress on a monthly basis. SEPS is closely working with the few
         components who struggle to meet the adjudicative timeliness to bring them to compliance.

         The O[G report indicates that " ... Department excludes attorney positions from its timeliness
         reports. As a result Department managers, and OPM, lacked information that would have alerted
         them to inefficiencies or delays in the non-FBI allomey clearance process." This statement is of
         concern in that the "exclusion" was not intentional, but rather has been and continues to be a
         te<:hnical issue wi thin the OPM's personnel security system. The ooJ SEPS stafT has been
         aware of this issue and has worked to address it several times. We are once again, engaged with
         OPM and were recently notified by OPM that their IT system redesign is in progress, with an
         anticipated completion of the first quarter of FY 2013.

         The final item I would like to address is the report 's statement about Public Trust employees who
         are permitted to start work with a pre-employment waiver. The repon states that as a result these
         individuals routinely work in the Department, with access to sensitive information and systems,
         for significant periods of time without the completed investigation and adjudication. The DIG
         repon states that three percent of the employees had investigations and adjudications that took
         over a year to complete and therefore, exceeded the individual 's probationary period.

         This pre-employment waiver consists of a favorable review of the se<:urity form, favorable
         results of the fingerprints check, a check of government databases to ensure there is no current
         investigation meeting the scope of the position or an Wlfavorable investigation, and a favorable
         credit check. Any issues developed in these areas are addressed and resolved prior to the
         employee being approved to enter on duty. It is important to note that the extensive waiver
         approval process provides for an acceptable risk to allow these employees to begin work while
         the investigation is in process. The report did not address the reason why the three percent of
         Public Trust cases had not been completed. Upon discussion with the O[G, they stated that they
         did not find oUI the reason the investigations were not adjudicated. The DIG further clarified
         that they were just looking for completion of the process. Therefore, SEPS cannot address the
         three pereent of cases not having been completed other than it is not inconceivable these
         individuals could have had activities in foreign countries or issues currently being addressed by
         the adjudicative omce.

         Many of the statements and recommendations mentioned in this revi ew were already known and
         addressed by SEPS. For several years, SEPS has been developing a Department-wide personnel
         security tracking system, the Justice Security Tracking and Adjudication Record System
         (JST ARS), to address oversight inemciencies previously identified by my staff. The timing of
         this review coincided with the last two years of the system's planned deploymcnt to the
         Department components. Many of the items identified as issues will be fully resolved with the
         implementation of 1ST ARS. For example, the GIG report indicates that "Although components
         track data on the status of employee background investigations, clearance levels and
         reinvestigations, the tracking is inconsistent and often incomplete." This is fully addressed by
         the enterprise deployment of JST AR.$; which gives the OOJ an effective oversight tool. Another
         example is the report's finding that the Depanment does not track reciprocal acceptance of




U.S. Department of Justice                                                                                    93
Office of the Inspector General
Evaluation and Inspections Division
         Memorandum fo r Miehacl D. Gulledge                                            Page 3
         Subject: Response to OlG's Report Entitled: Review of the Department's and Component's
         Personnel Security Processes, Assignment Number A· 2011·002

         security clearances. JST ARS was built with this funct ionality in mind and since its inception in
         July 2008, it has had this capability. Hov,'Cver, since JSTARS was not fully deployed to all
         Departmental personnel security offices; not all components had this capability.

         I believe the recommendat ions from this report will have a positive impact in our personnel
         security and compliance review programs. The OIG report contains 13 recommendations.
         Information below responds to the recommendations. The recommendation numbers correspond
         to those in the OIG report.

         I. OARM should work with SEPS to develop and implement a process for reviewing and
            adjudicating non·FBI attorney im'esligalions to meet the IRTPA timeliness goals.

                We concur with this recommendation. Both SEPS and OARM have al ready held two
                meetings (January 17, 2012 and February 6, 2012) to re-engincer th e revie w process
                between the two officcs. The Department's Personnel Security System, JST ARS will
                need to be changed to accommodate the new process.

                Next Steps:

                    •   Hold meeting with SEPS, OARM and JSTARS Development teanl to identify
                        requ irements for the new Attorney revie w process. Meeting is sched ul ed for
                        July 10,2012.

                    •   JST ARS team develops new process; specialists will test new process and concur
                        with the new developme nt.

                    •   New process is deployed to JSTARS.

                    •   Estimated completion time is three months from requirements gathering phase,
                        approximately on November 2, 2012.

         2. OARM should red uce th e time-limited appointment waiver period from 18 months to
            12 months and 1 day to complete suitability determinations.

                OARM is responsib le for replying to this recommendation.

         3. OARM shou ld increase the amount of $Iaff dedkated to processi ng completed
            investigations.

                 OARM is responsihle for replying to this recommendation.

         4. SEPS should work with OPM, FBI and OARM to ensure thai a ll of the attorney
            background investigation and adjudication datB is included in the Department's
            IRTPA tim eliness reports.

                SEPS concurs with this recommendation, but the successful implementation of this
                TCi:ommendation is dependent on OPM's technology improvements. SEPS has already
                communicated to the FBI that all attorney and political appointee investigations arc to be




U.S. Department of Justice                                                                                    94
Office of the Inspector General
Evaluation and Inspections Division
        Memorandum for Michael D. Gulledge                                            Page 4
        Subject: Response to OIG's Report Entitled: Review of the Depanment's and Component' s
        Personnel Security Processes, Assignment Number A-201 1-002

               expedited. SEPS has held several discussions with OPM representatives to address the IT
               impediment and OPM has recently stated they would not be able to accommodatc this
               request until their IT system is redesigned. (Estimated time of completion is the I"
               Quarter of FY 2013.)

        5. The BOP should work with SEPS to es ta blish procedures to improve its timelin ess in
           adjudic atin g Public Trust cases.

               SEPS concurs with this recommendation; however, believes that the timeliness
               requirement has already been properly communicated through DO] Order 261 0.213 which
               already states that Public Trust investigations must be adjudicated within 90 days of
               completion. SEPS will remind BOP of this timelines requirement via memorandum from
               the Department Security Officer.

               Estimated Date: Ju ly 30, 2012

        6. SEPS should work with co mpon ents to ensure th at approvals for individuals in a
           probati onary status a re completed prior to the end of th e probatio n pe r iod.

               As memioned above, DO] Order 261 0.2B addresses the timeliness requirement for Public
               Trust adjudications. SEPS will remind components of the importance of meeting this
               deadline and its impact on probationary status employees via memorandum from the
               Deparunent Security Officer.

               Estimated Date: July 30, 2012

        7. The Depa rtment should n quire components to share intern a l r eview res ults with SEPS.

               SEPS agrees with this recommendation. On lune 8, 2012, SEPS sent a data call to 001
               components soliciting copies of their internal audit and inspection reports to leverage
               limi ted resourccs and reduce duplication of oversight efforts with the Department.

               Additionally, a policy statement will be sent to component Security Programs Managers
               requiring components share internal security review results with SEPS.

               Estimated Date: September 30, 2012

        8. The Compliance Review Tea m should use the res ults of components' intern al reviews to
           Idtmtlry trends a nd rec u rring perso nnel sec uri ty problems across th e Department a nd
           foc us on th e most critical sec urity iss ues.

               SEPS agrees with this recommendation and will communicate the request to all
               Department components.

               On June 8, 2012, SEPS sent a data call request to 001 components soliciting copies of
               their internal information, combined with the required annual component security self­
               inspections. The self-inspection results will be utilized to analyze trends and recurring
               personnel security deficiencies. The information will also be utilized to create security




U.S. Department of Justice                                                                                 95
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Michael D. Gulledge                                             Page 5
           Subject: Response to O[G's Report Entitled: Review of the Department's and Component's
           Personnel Security Processes, Assigrunent Number A-20[ [-002

                  education and awareness tools to enhance the Department' s Security Programs.

                  Estimated Date: December 30, 2012

           9. SEPS should increase the amount of staff dedicated to co ndu cting co mpliance r eviews.

                  SEPS concurs with this recommendation. Due to today's fiscally conservative
                  environment and the current hiring freeze impacting the Departmcnt, SEPS cannot
                  guarantee it will be ab le to hire additional full time employees. SEPS has already re­
                  engineered its human capital rcsources for maximum effcctiveness givcn the existing
                  budget. However, we will continue to look for opportunities to re-program critical
                  resources and personnel to ensure the Department has an elTective security compliance
                  review program.

           10. SEPS should ensure thai only the BOP Security Programs Manager authorize pre­
               employment waivers, based on the SEPS delegation of authority memorandum.

                  SEPS concurs with this rttQmmendation and is already engaged with BOP to achicve this
                  recommendation. On March 26, 2012, the DSO communicated to BOP's SPM the fact
                  that BOP needcd to ensure compliance with the March 20, 2003 delegation of authority
                  memorandum by June 1.2012.

                  BOP responded in correspondence to the Deputy Assistant Allorney General for Human
                  Resources and Administration (DAAGn'IRA) April 20, 2012, requesting postponement
                  of the due date given complexities in this request.

                  Via memorandum dated April 30,2012, the DAAGIHRA requested from BOP an
                  implemcntation plan.

                  On June 1,2012, BOP communicatcd an implemcntation plan which wou ld bring BOP
                  into compliance with its delegated authority by August 2012.

                  On June 13,2012 BOP personnel met with SEPS personnel to discuss JSTARS
                  deployment strategy for BOP.

                  BOP personnel have stated they will make their deployment decision by end of June.
                  2012.

                  BOP' s utilizati on of JSTARS will ensure their pre-employment waivers are reviewed by
                  thei r security stalTbefore thei r employees and contractors commence work.

           II. The co mpon ents develop and implement procedures to ensure fi eld offices have access
               to headquarte rs' security information.

           12. The components require eac h field office to know the type of cleara nce uch employee
               holds on site.

                  Recommendations 11 and 12 above would be covered if all components choose to
                  provide their field offices access to JST ARS or provide them with monthly reports.




U.S. Department of Justice                                                                                  96
Office of the Inspector General
Evaluation and Inspections Division
         Memorandum for Michael D. Gulledge                                             Page 6
         Subject: Responsc to OIG's Rcport Entitled: Review of the Department's and Component's
         Personnel Security Processes, Assignment Number A-20 11-002

                SEPS has provided this tool through JST ARS and has recommended the practice to all
                components. To date, only the Executive Office for U.S. Allomeys has chosen to utilize
                this functionality.

                The DSO will remind all Security Programs Managers of this functionality within
                JSTARS by Augusl 1,20 12, and request that thcy share infonnalion with their respective
                field offices.

         13. The Department r equire co mpon ent, to track and report reciprodty data.

                Everyone utilizing JST ARS will be compliant with this recommendation as the system
                was built with this functionality. SEPS has been able 10 track this infonnation since the
                system's inception on July 21,2008.

         SEPS is commilled to a strong and effective personnel security program, and recognizes that
         there is always room for im provement. Therefore, you have my commitment that SEPS will
         wo rk diligently to implement the ~ommendations to the best of its ability as quickly as
         possible. Should you have any questions or require additional infonnation, please contact me
         directly at (202) 5 \4 -2094 or Dorianna Rice, Assistant Director, Personnel Security Group, at
         (202)5\4-2351.




U.S. Department of Justice                                                                                  97
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XX: OIG ANALYSIS OF THE SECURITY AND EMERGENCY 

                PLANNING STAFF RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Justice Management Division’s Security and Emergency Planning
Staff for its comment. SEPS’s response is included in Appendix XIX to
this report. The OIG’s analysis of SEPS’s response and the actions
necessary to close the recommendations are discussed below.

GENERAL COMMENTS

      We agree with SEPS that not all components are responsible for
each part of the security clearance process, and for this reason our
report does not assign blame to the Department or SEPS for the lengthy
periods taken to conduct background investigations. However, as
discussed in multiple conversations with SEPS officials, the OIG is
evaluating the entire security clearance process, including both
background investigations and adjudications, and that evaluation
requires presenting a complete picture of the time it takes to complete
the entire process for DOJ employees.

       SEPS’s response expresses concern that the data used for the
report is obsolete, and the response cites recent ODNI and OPM data
that indicates improvement in the timeliness of the Department’s
adjudications. The data the OIG used was the most current complete
data available at the start of the review. Moreover, our report
acknowledges at the outset that the Department met the IRTPA standard
for adjudication, which is an important element of the overall security
clearance process. However, unlike ODNI’s and OPM’s assessments, the
OIG’s review assesses the entire process, not just the adjudication
element, and for that reason among others we strongly disagree that the
data we used is obsolete.

      SEPS’s response also expresses the concern that the OIG has
implied that SEPS intentionally excluded attorney data from Department
timeliness reports, when according to the response these exclusions were
instead due to ongoing technical issues with OPM that prohibited the
inclusion of the data. We believe SEPS’s response mischaracterizes our
report. The report does not assert, nor do we intend to imply, that
attorney data was intentionally excluded. Rather, the report properly
notes that SEPS is ultimately responsible for ensuring that all data is
reported.



U.S. Department of Justice                                                98
Office of the Inspector General
Evaluation and Inspections Division
       SEPS’s response also takes issue with our statement on page 40
that “it took more than one year to complete the background
investigations and adjudications for 3 percent of the employees in Public
Trust positions, which exceeded their one year probationary periods.”
The SEPS response states that “the extensive waiver approval process
provides for an acceptable risk to allow these employees to begin work
while the investigation is in process.” Although the current procedures
for completing pre-employment waivers consist of several checks
conducted by HR personnel, the waivers are not always reviewed by
security personnel prior to the individual starting work as we note on
pages 39 and 45. As a result, the OIG is concerned that the potential for
security risks exists, and for this reason we have highlighted the issue in
our report.62

       Finally, the OIG is aware that SEPS has been developing and
implementing JSTARS. We agree that full implementation of JSTARS
among all components should address many of the recommendations in
this report.

RESPONSES TO RECOMMENDATIONS

Recommendation 1: OARM work with SEPS to develop and
implement a process for reviewing and adjudicating non-FBI
attorney investigations to meet the IRTPA timeliness goals.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation.
SEPS and OARM held two meetings (on January 17, 2012, and
February 6, 2012) to re-engineer the review process between the two
offices. JSTARS, will need to be changed to accommodate the new
process. SEPS stated that it expected to the following steps to be
completed by approximately November 2, 2012:

       	 SEPS will meet with OARM and the JSTARS development team
          to identify system requirements for the new attorney review

       62 We also disagree with the statement in SEPS’s response that, because the OIG
did not identify and evaluate the reason for the delays in the security clearance process
for the employees in these Public Trust positions, “SEPS cannot address [these] cases.”
As stated in our report, SEPS is the primary office responsible for developing,
implementing, and ensuring compliance with security policy throughout the
Department, and it conducts oversight of the Department’s personnel security
processes. In light of those responsibilities, we believe SEPS is well positioned to
identify and address the causes of these delays.


U.S. Department of Justice                                                            99
Office of the Inspector General
Evaluation and Inspections Division
           process. The meeting was scheduled for July 10, 2012.
          The JSTARS team will develop a new process that will be tested
           by specialists before deployment.
          The new process will be deployed to JSTARS.

      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide documentation of the completed
process by January 15, 2013. If the process is not completed by that
date, please provide a status update of the steps that have been
completed and a new estimated completion date.

Recommendation 4: SEPS work with OPM, FBI and OARM to ensure
that all of the attorney background investigation and adjudication
data is included in the Department’s IRTPA timeliness reports.

       Status: Resolved.

      SEPS Response: SEPS concurred with this recommendation, but
stated that the successful implementation of this recommendation
depends on OPM’s technology improvements. SEPS has already
communicated to the FBI that all attorney and political appointee
investigations are to be expedited. SEPS also has held several
discussions with OPM representatives to address the information
technology impediment, and OPM recently stated it would not be able to
accommodate this request until its system is redesigned. According to
SEPS, the redesign is expected to be completed in the first quarter of FY
2013.

       OIG Analysis: SEPS’s actions are partially responsive to our
recommendation. SEPS and OPM have been aware of this issue for the
past 2 years and have held several discussions and meetings. However,
SEPS is still not reporting the Department attorney timeliness data.
Although there are technical issues related to reporting attorney data,
the requirement still exists. SEPS should explore alternative reporting
methods and develop a written plan of action in the event that OPM’s
longstanding technical issues are not resolved. Please provide a copy of
the alternative action plan for reporting attorney data by October 15,
2012. Additionally, please provide a detailed status report of any
subsequent meetings with OPM, by January 15, 2013.

Recommendation 5: The BOP work with SEPS to establish
procedures to improve its timeliness in adjudicating Public Trust
cases.

       Status: Resolved.

U.S. Department of Justice                                             100
Office of the Inspector General
Evaluation and Inspections Division
      SEPS Response: SEPS concurred with this recommendation.
However, SEPS stated that the timeliness requirement has already been
properly communicated through DOJ Order 2610.2B, which states that
Public Trust investigations must be adjudicated within 90 days of
completion. SEPS planned to remind the BOP of this timelines
requirement via a memorandum from the Department Security Officer to
be issued by the end of July 2012.

     OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide a copy of the Department
memorandum from the Department Security Officer to the BOP by
October 15, 2012, and describe how SEPS will specifically work with the
BOP to improve adjudication reporting timeliness.

Recommendation 6: SEPS work with components to ensure that
approvals for individuals in a probationary status are completed
prior to the end of the probation period.

       Status: Resolved.

      SEPS Response: SEPS concurred with this recommendation.
SEPS stated that it will remind components of the importance of meeting
the deadline established by DOJ Order 2610.2B and its impact on
probationary status employees via a memorandum from the Department
Security Officer to be issued by the end of July 2012.

      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide a copy of the Department
memorandum outlining the deadline requirements by October 15, 2012,
along with documentation showing that SEPS can identify Department
employees who are within 60 days of reaching permanent status and do
not have a completed investigation.

Recommendation 7: The Department require components to share
internal review results with SEPS.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation. On
June 8, 2012, SEPS sent a data call to DOJ components soliciting copies
of their internal audit and inspection reports to leverage limited
resources and reduce duplication of oversight efforts with the
Department. Additionally, it planned to send a policy statement to
component Security Programs Managers by the end of September 2012
requiring components share internal security review results with SEPS.

U.S. Department of Justice                                          101
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. By October 15, 2012, please provide a copy of the data
call to DOJ components and a copy of the policy statement requiring
components to share internal security results with SEPS. In addition,
please provide documentation that component Security Programs
Managers are sharing internal security review results with SEPS.

Recommendation 8: The Compliance Review Team use the results
of components’ internal reviews to identify trends and recurring
personnel security problems across the Department and focus on
the most critical security issues.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation. On
June 8, 2012, SEPS sent a data call to DOJ components soliciting copies
of their internal information, combined with the required annual
component security self-inspections. The self-inspection results will be
used to analyze trends and recurring personnel security deficiencies.
The information also will be used to create security education and
awareness tools to enhance the Department’s Security Programs. SEPS
estimated that these steps would be completed by the end of December
2012.

       OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide copies of inspection documents that
reflect that the Compliance Review Team has incorporated trends
discovered during internal component self-inspections into Department
inspection procedures by January 15, 2013.

Recommendation 9: SEPS increase the amount of staff dedicated to
conducting compliance reviews.

       Status: Resolved.

      SEPS Response: SEPS concurred with this recommendation.
Because of the current fiscal environment and the hiring freeze affecting
the Department, SEPS stated that it cannot guarantee it will be able to
hire additional full-time employees. SEPS stated that it had already re-
engineered its human capital resources for maximum effectiveness given
the existing budget. It also stated that it would continue to look for
opportunities to re-program critical resources and personnel to ensure
the Department has an effective security compliance review program.



U.S. Department of Justice                                            102
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: SEPS’s actions are responsive to our
recommendation. Please provide documentation that reflects SEPS’s re-
engineered procedures to maximize Compliance Review Team resources
by October 15, 2012.

Recommendation 10: SEPS ensure that only the BOP Security
Programs Manager authorize pre-employment waivers as prescribed
in the SEPS delegation of authority memorandum.

       Status: Resolved.

       SEPS Response: SEPS concurred with this recommendation. On
March 26, 2012, the Department Security Officer informed the BOP’s
SPM that, by June 1, 2012, the BOP needed to ensure compliance with
the March 20, 2003, delegation of authority memorandum. The BOP
requested an extension from the Deputy Assistant Attorney General for
Human Resources and Administration. In an April 30, 2012,
memorandum, the Deputy Assistant Attorney General requested that the
BOP provide an implementation plan, which the BOP submitted on
June 1, 2012, showing that the BOP could be brought into compliance
with its delegated authority by August 2012.

      In addition, on June 13, 2012, BOP and SEPS personnel met to
discuss a JSTARS deployment strategy for the BOP. BOP personnel
stated they would make their deployment decision by the end of June
2012. SEPS stated that the BOP’s use of JSTARS will ensure pre-
employment waivers are reviewed by BOP security staff before employees
and contractors commence work.

      OIG Analysis: SEPS’s actions are responsive to our
recommendation. Please provide a copy of the BOP’s implementation
plan by October 15, 2012, that reflects procedures to ensure all pre-
employment waivers are completed according to the appropriate
delegation authority.

Recommendation 11: The components develop and implement
procedures to ensure field offices have access to headquarters’
security information.

                                      and

Recommendation 12: The components require each field office to
know the type of clearance each employee holds on site.

       Status: Resolved.

U.S. Department of Justice                                              103
Office of the Inspector General
Evaluation and Inspections Division
       SEPS Response: SEPS concurred with Recommendations 11 and
12 in a single response. SEPS stated that it believed the
recommendations could be implemented if all components provide their
field offices access to JSTARS or provide them with monthly reports, a
practice SEPS has recommended the practice to all components. To
date, only the Executive Office for U.S. Attorneys has chosen to use this
functionality in JSTARS. The Department Security Officer will remind all
Security Programs Managers of this functionality by August 1, 2012, and
request that they share information with their respective field offices.

      OIG Analysis: SEPS’s planned actions are responsive to our
recommendation. Please provide documentation indicating that SEPS
has notified components about the specific information access
functionality of JSTARS by October 15, 2012.

Recommendation 13: The Department require components to track
and report reciprocity data.

       Status: Resolved.

      SEPS Response: SEPS concurred with this recommendation.
SEPS stated that JSTARS was built with this functionality and that the
components will be compliant when the system is utilized. SEPS has
been able to track this information since the system’s inception on
July 21, 2008.

      OIG Analysis: SEPS’s actions are responsive to our
recommendation. Please provide documentation that each component is
compliant with JSTARS reciprocity tracking requirements by April 15,
2013.




U.S. Department of Justice                                           104
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XXI: THE OFFICE OF ATTORNEY RECRUITMENT AND 

         MANAGEMENT RESPONSE TO DRAFT REPORT 





                                                               U.S. Department of Justice
                                                              Office of Attorney Recruitment and Management




                                                               July2,20 12

        TO:                    Office of the Inspector General
                               Evaluat io~nd Inspections Division


        FROM:                  Louis 1e)!afaise
                               Director
                               Office of Attorney Recruitment and Management (OAJU...1)

        SUBJEc r:              The Office of the Inspector General's Draft of a Review
                               Of the Department's and Components' Personnel Security Processes

        By EMAIL dated June 20, 2012, the Office of the Inspector General (OIG) requested this office
        offer comments on the OIG's draft report titled, "The Department'S and Components' Personnel
        Security Processes"(Dmft). The Office of Auorney Recruitment and Management (OAJU...1) has
        reviewed the Draft and provides the following comments.

        Background

        Under DOJ order 261 0.2B. Department Human Resources Offices have delegated authority 10
        make suitability determinations for non-anomey employees pursuant to 5 CFR 7) I. which sets
        forth the standards :md process for suitability determinations for the competitive service, career
        Senior Exttutive Service positions. and those excepted service positions in which" ... the
        incumbent can be noncompeti tively converted to the competitive se"'ice." 5 CFR 7) 1.1 01.
        DOJ 261 0.2B specifies th(lt suitability determinations for attorneys and law clerks will be made by
        OARM . National Security delenninations are vested in the Department's Security Officer, here
        the Director of the Security and Emergency Planning Staff (SE PS). DOJ 2610.28 7. OAJU...1
        will therefore offer comments only on those aspects of the Draft that touch on auorney/law student
        suitabilit y determinations and defer to SEPS on all matters relating to National Security
        detenninations.

        It is imponantto note that approximately half of the Dep:lrtment's career attorney appointments
        are made under Title 28 authority as opposed to Title 5 authority, and that those appointed under
        Title 5 authority are not appointed subject to noncompetitive conversion to the competiti ve
        se",ice. Thus, while the suitability review for career Department attorneys is, in large part, based
        on similar factors and processes as those set ou t in 5 CFR 73 I, it is more broad and in depth given
        Ihe nature and scope of the work of the Department's allorneys. Application of distinctive criteria
        for attorney sui tability review is consistent with distinctions made in the appropriations laws with
        respect to anorneys. In addition to the exclusions generally applicable to excepted service hires,
        appropriation laws exem pt anorney hires from outside rating and examination proce~ses otherwise
        applicable to government employment.




U.S. Department of Justice                                                                                      105
Office of the Inspector General
Evaluation and Inspections Division
                                                                                                         Page 2
         It is also important to note why it is appropriate and necessary to give a very high level of scrutiny
         to the sui tabili ty of al10mey applicants. Line al10rneys exercise discretion that can profoundly
         impact the life. liberty and property of citizens. Every iss ue noted in th e standard suitability
         requi rements is thoroughly veued. In fairness, candidates are also give n the opportunity to
         rcspond to such issucs. all of which takes lime.

         For your conveniencc, the following OARM commcnts are grouped by topic: BI adjudication
         time, two anecdotal examples, changing the security clearance process for greater efficiency, and
         re<:ommcndations.

         BI Ad judication Time

         Pagl' 29 of the Draft states that from October 1, lOOt) to December 31 ,20 10, OARt'vl received over
         1000 completcd bac kground investigations, and complcted only 234 adjudications. This is
         accurate under thc parametcrs set out fo r you r study as only 234 cases were approved by OARM
         and SEPS ou t of the 1,000 received during that same time period.

         However, for clarity and bac kground, OARM's data , obtai ned from fl.-ports run on the JST ARS
         system and an additional database (which stored information on cases initiated prior to the
         implementation of JST ARS), reflects that du ring this time pe riod OARM received 1024 Bls and
         adjudicated 748 BIs. (Reports reflect in g these figures were previously provided as AUachmenlS
         A, Band C 10 OA RM 's January 26, 1012 commen ts.) T wo factors may account fo r the difference
         between 234 cases and 748: (\) OARM's approvals of cases previously pending (Bls initiatcd
         prior to 1011 /09) and (2) cases rcviewcd for suitability by OARM, but not by SEPS for Na tional
         Security.

         OARM also notes Ihat Bls cond ucted by the FBI, which are mandated for attorneys under the
         Department's Security Order, 001 261 0.2B, are typically lengthier and provide more detailed
         informati on than those cond ucted by o ther agenc ies; accord ingly, they require more time to review
         than those uscd for Olher employees. Additionally, a few components have asked to routinel y
         review the Bls of thei r attorneys aft er OARM reviews the file. and before SEPS completes its
         review. which adds to the total adjud ication time.

         Two anccdolal examples

         The draft report discussed tv..o cases in which excess ive processing delays were cited. This is
         correct and it was discovercd 10 invo lve human error and co rrective steps have bee n implemented.
         However, in most instances. any delay in completing suitability review is caused by Ihe need 10
         resolve questions and issues that arise in individual cases and based on the concerns expressed in
         your report even though, as you note, your focus is the national secu rity timeliness and not
         suitabi lity timel iness as such. To help shorten the turnaround ti me we have changed our internal
         order of reading and addressing the BI 's. OARM had been operating on a priority based on the
         employee's entry on duty (fOD) dale irrespcctive of the receipt date of the BI. We now read
         them in the order of receipt wh ich should help SEPS meet the IRJ'TA timeliness deadlines, for as
         long as OARM continues to act first. If we arc ablc to revcrse the order of consideration (as




U.S. Department of Justice                                                                                        106
Office of the Inspector General
Evaluation and Inspections Division
                                                                                                      Page 3
         discussed below) the timeliness problem in meeting security time standards should be
         substantially solved,

         Changing Ihe Security Clearance Process for Greater Efficiency

         The Draft suggests Ihal OARM consider Ihe possible benefits of an allomey process similar to the
         EOUSA non-atlomey system or the FBI system. The EOUSA system cannot be adopled as it
         would be cOntrary 10 DOl order 261 0.2B·s requiremenlthal OARM perform the suitability
         approval on all Depanment career allomeys and therefore OARM cmmot delegate any ponion of
         this function to SEPS. However, the FBI model may in fact be a viable option. lmplementing
         this option presents a technological and budge! issue as Ihe JST ARS tracking system would have
         to be redesigned to allow this. SEPS is pursuing those issues. lfthis is done it should
         substantially shorten the time for National Security Clearances of Department atlomeys.

         Recommendations

         The draft repon makes 4 ret:ommend3tions on page 37. The recommendations, and OARM's
         comments with respect to each, are set forth below.

         I. OARM work with SEPS to de\"{:lop and iml,lement 11 process fo r rC"iewin g and
         adj udicati ng non-FBI aflorney innsti gati ons to meet th e IRPT A timeliness goals.

         As discussed above OARM is working with and supponing SEPS in developing a process
         whereby SEPS conducts its review and approval of investigations prior to OARM's sui tability
         adjudication. This change in process would allow SEPS to obtain allomey Bls immediately upon
         their completion, and to conduct their review within the IRPT A time frames. As noted in the draft
         repon. OARM's suitability adjudication is not subject to IRPT A guidelines.

         As noted above, implementation of a reversal of 81 review order will require a significant rev ision
         of the current work now process in the electronic tracking system (1ST ARS). A meeting has been
         seheduled on July 10,2012, for representatives from SEPS, OARM and lSTARS to discuss the
         necessary revisions. It is OARM's understanding that the time frame for implementation of the
         required changes to 1STARS is dependent upon funds availability. As the Manager of 1STARS,
         SEPS may be able to provide additional information regarding budget constraints and anticipated
         timeframes.

         2. OA RM redu ce the time-lirnilcd 31' point mC llt wainr period from 18 ntOllths 10 12 months
         a nd I day to co mplete suila bility determ inations.

         OARM concurs with the recommendation to reduce the initial time-limited appointment and notes
         that effective 4/8/ 12. the initi31 appointment was changed to 14 months, Although OARM
         considered the 12 month I day appointment we feel the 14 month change to be more desirable in
         order to be consistent with 5 CFR 21).) 102(e). This is the maximum period that can be 3110wed
         to Jaw clerks (graduating law studeills hired under the Honors Program) to complete their bar
         admission requirement. As opportunities to take the b3r exam are limited, it is desirable to keep




U.S. Department of Justice                                                                                      107
Office of the Inspector General
Evaluation and Inspections Division
                                                                                                        Page 4
         the 14 month standard for entry level appointments. l3y shortening the time limited in itial
         appointment to 14 months we keep parity between the entry level allomey appointments and those
         for lateral allomeys. Also, before the switch to 18 months the standard had been 14 mOll1hs and is
         still familiar to the componen!5. In addition, other than its effect on employee bcllcfits and bar
         adm ission opportunity, the exact time period of such an appointment has no practical impact as we
         arc now reading DIs in order of receipt. Dis wi thout issues will be disposed of in advance of
         either a 12 month I day limit or a J 4 month limit. Likewise, if an extension is required to resolve
         issues, the difference in the two time limits has lillIe practical effect. Some period must be chosen
         for time limi ted appoimments but whether 18 months, 14 months, or 12 months and a day, it has no
         bea ring on Ihe time it takes to finish processing an approval. Many cases will be disposed of in
         less time and the rest will result in ex tension until resolution of all issues or rejcction.

         J. OARM increase th e amount of staff dedicated to processin g co mpleted in,'eSligations.

         Although additional resources can in mosl circumstances speed any process, both Department
         wide and office specific circumstances make it unlikely that additional help will be available in the
         short run. However, the same cireumstances have also substantially reduced the pool of I3!s
         awaiting initial reading and processing. Any ponion of delay attributable to the rat io of new work
         to available personnel has been so reduccd that the allocation of additional resou rces to III review
         would not significantly expedite the review process at this tinte. This would of course change
         with a return to former hiring levels.

         4. S EPS work with OPM, FIJ I and OAR.,M to ensure that all of th e attorney background
         in,'es ti ga tion and adjudication data is included in the Department 's timeliness reports.

         As noted above and by your report (FN 4 1), OARM's sui tability adjudications arc nOI subject to
         IRPTA guidelines, but OARM will actively cooperate with and assist SEPS with their IRPTA
         reponing responsibility in any wa y feasible .

         Thank yOIl for the Opport unity to provide these comments and to work with you to improve
         operational processing.




U.S. Department of Justice                                                                                       108
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XXII: OIG ANALYSIS OF THE OFFICE OF ATTORNEY 

        RECRUITMENT AND MANAGEMENT RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Office of Attorney Recruitment and Management for its comment.
OARM’s response is included in Appendix XXI to this report. The OIG’s
analysis of OARM’s response and the actions necessary to close the
recommendations are discussed below.

GENERAL COMMENTS

      OARM provided comments on aspects of the report that related to
suitability determinations for attorneys and law students. In particular,
OARM discussed the adjudication times, two examples mentioned in the
report, and changing the security clearance process review for non-FBI
attorneys.

       Although OARM’s response acknowledges the accuracy of our
finding that OARM completed only 234 attorney security adjudications
out of the more than 1000 background investigations received during our
review period, the response nevertheless takes issue with this finding,
asserting that the report data did not include all of the cases OARM
processed for suitability adjudication during the review period. OARM
believes that the proper number of attorney security adjudications it
completed is 748.

       As for our finding of 234 completed attorney security
adjudications, we note that our data was provided to us by OARM from
JSTARS, and at our request, the data included only those cases for
which both the background investigation and the adjudication were
completed during our review period. Our methodology, which is
disclosed in our report, ensured that we were assessing the end-to-end
security clearance process for Department employees. To this end, we
only examined OARM’s role in completing suitability reviews in so far as
it resulted in significant delays to the security clearance process for non-
FBI attorneys. We therefore did not include a separate analysis of all of
OARM’s suitability determinations during this period, and we did not
assess the number of background investigations adjudicated by OARM
during the review period that were already pending at the beginning of
the review period. These additional analyses would not have provided
useful insights into the frequency, extent, or causes of delays in the end-
to-end security clearance process for Department employees.



U.S. Department of Justice                                              109
Office of the Inspector General
Evaluation and Inspections Division
       At OARM’s request, and to ensure the accuracy of our report, the
OIG verified its data with SEPS and conducted additional analyses of
data from both JSTARS and OARM’s internal system in an attempt to
verify OARM’s assertion that it completed 748 adjudications during the
review period. We were unable to do so. Nor did we receive evidence that
OARM had reviewed a significant number of attorney cases for suitability
during the review period that were still pending a security review by
SEPS, as OARM asserts in its response.

       OARM’s response also expresses concern about two cases
highlighted in our report for excessive delays caused by human error.
The response states, “[I]n most instances, any delay in completing
suitability review is caused by the need to resolve questions and issues
that arise in individual cases . . . .” However, the OIG reviewed the
security files for an additional 10 attorney cases representing the two
longest attorney cases for each quarter in FY 2010 and the first quarter
of FY 2011, and we found that only two of these cases contained
questions and issues relating to derogatory information that could
possibly explain the length of the security process. This sample of 10
files was inadequate to reach a broad conclusion about the most
common cause of delays in completing security clearance adjudications,
yet it also offered no support to the assertion in the OARM’s response.

RESPONSES TO RECOMMENDATIONS

Recommendation 1: OARM work with SEPS to develop and
implement a process for reviewing and adjudicating non-FBI
attorney investigations to meet the IRTPA timeliness goals.

       Status: Resolved.

      OARM Response: OARM concurred with this recommendation.
OARM stated that was working with and supporting SEPS in developing
a process whereby SEPS conducts its review and approval of
investigations prior to OARM’s suitability adjudication. This change in
process would allow SEPS to obtain attorney background investigations
immediately upon their completion and to conduct its review within the
IRPTA time frames. As noted in the draft report, OARM’s suitability
adjudication is not subject to IRPTA guidelines.

      Implementing a reversal of the background investigation review
order will require a significant revision of the current workflow process in
JSTARS. A meeting was scheduled for July 10, 2012, for representatives
from SEPS, OARM, and JSTARS to discuss the necessary revisions. It


U.S. Department of Justice                                              110
Office of the Inspector General
Evaluation and Inspections Division
was OARM’s understanding that the time frame for implementing the
required changes to JSTARS depended on the availability of funds.

      OIG Analysis: The actions taken by OARM are responsive to our
recommendation. By October 15, 2012, please provide a status report
regarding the meeting with SEPS and documentation showing how
OARM and SEPS have revised the process for reviewing and adjudicating
non-FBI attorney investigations to meet the IRTPA timeliness goals.

Recommendation 2: OARM reduce the time-limited appointment
waiver period from 18 months to 12 months and 1 day to complete
suitability determinations.

       Status: Resolved.

       OARM Response: OARM concurred with the recommendation to
reduce the initial time-limited appointment. OARM noted that effective
April 8, 2012, the initial appointment was changed to 14 months.
Although OARM considered the 12 month 1 day appointment, it believed
the 14-month change to be more desirable in order to be consistent with
5 C.F.R. 213.3102(e). It is the maximum period that can be allowed to
law clerks (graduating law students hired under the Honors Program) to
complete their bar admission requirement. As opportunities to take the
bar exam are limited, it is desirable to keep the 14-month standard for
entry-level appointments. Shortening the time-limited initial
appointment to 14 months keeps parity between the entry-level attorney
appointments and those for lateral attorneys. Also, before the switch to
18 months, the standard had been 14 months and is still familiar to the
components. OARM also stated that other than its effect on employee
benefits and bar admission opportunity, the exact time period of such an
appointment has no practical impact as it is now reading background
investigations in order of receipt. OARM stated that it will dispose of
background investigations without issues before either a 12-month-1-day
or a 14-month limit is reached. If an extension is required to resolve
issues, the difference in the two time limits has little practical effect,
according to OARM. It stated that many cases will be disposed of in less
time and that the rest will result in extensions until all issues are
resolved or the employee is rejected.

     OIG Analysis: OARM’s actions are responsive to this
recommendation. Please provide a copy of the April 8, 2012, decision to
change the initial appointment period from 18 months to 14 months by
October 15, 2012. Please provide documentation reflecting the number
and percentage of approvals completed within the 14 month time frame
by April 15, 2013.

U.S. Department of Justice                                            111
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 3: OARM increase the amount of staff dedicated
to processing completed investigations.

       Status: Resolved.

      OARM Response: OARM concurred with this recommendation.
OARM stated that given Department-wide and office-specific
circumstances, it was unlikely that additional staff will be available in
the short run. However, the same circumstances have also substantially
reduced the pool of background investigations awaiting initial reading
and processing. Any portion of delay attributable to the ratio of new
work to available personnel has been so reduced, according to OARM,
that the allocation of additional resources to background investigation
review would not significantly expedite the review process at this time.
OARM noted that this would of course change with a return to former
hiring levels.

       OIG Analysis: OARM’s actions are responsive to this
recommendation. However, we believe that until OARM addresses its
staffing and work process issues, suitability reviews for attorneys will
continue to be subject to significant delays, particularly when there is a
high volume of new hires. Please develop a plan for re-allocating OARM’s
staff and work processes and provide a copy to the OIG by October 15,
2012, and verify that the plan is current every 6 months until the
recommendation is closed.

Recommendation 4: SEPS work with OPM, FBI, and OARM to
ensure that all of the attorney background investigation and
adjudication data is included in the Department’s IRTPA timeliness
reports.

       Status: Closed.

      OARM Response: OARM concurred with this recommendation.
OARM stated that as the OIG’s report noted, suitability adjudications are
not subject to IRPTA guidelines, but stated that OARM will actively
cooperate with and assist SEPS with its IRPTA reporting responsibility in
any way feasible.

      OIG Analysis: In response to our recommendation, which was
directed to SEPS, the OARM agreed to work with SEPS to meet its IRTPA
reporting responsibility for non-FBI attorneys. No further status reports
are required from the OARM on Recommendation 4.



U.S. Department of Justice                                            112
Office of the Inspector General
Evaluation and Inspections Division
